<html>
<title> - CHALLENGES FOR THE SPECIAL OPERATIONS COMMAND (SOCOM) POSED BY THE GLOBAL TERRORIST THREAT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-19]
 
  CHALLENGES FOR THE SPECIAL OPERATIONS COMMAND (SOCOM) POSED BY THE 
                        GLOBAL TERRORIST THREAT

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 14, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
37-980 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                KEN CALVERT, California
JIM MARSHALL, Georgia                JOHN KLINE, Minnesota
MARK UDALL, Colorado                 THELMA DRAKE, Virginia
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         JIM SAXTON, New Jersey
KATHY CASTOR, Florida
                 Bill Natter, Professional Staff Member
               Alex Kugajevksy, Professional Staff Member
                     Andrew Tabler, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, February 14, 2007, Challenges for the Special 
  Operations Command (SOCOM) Posed by the Global Terrorist Threat     1

Appendix:

Wednesday, February 14, 2007.....................................    43
                              ----------                              

                      WEDNESDAY, FEBRUARY 14, 2007
  CHALLENGES FOR THE SPECIAL OPERATIONS COMMAND (SOCOM) POSED BY THE 
                        GLOBAL TERRORIST THREAT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     2

                               WITNESSES

Benjamin, Daniel, Director, Center on the United States and 
  Europe, Brookings Institution..................................     7
Brachman, Dr. Jarret, Ph.D., Director of Research, Combating 
  Terrorism Center, United States Military Academy...............    14
Hoffman, Dr. Bruce, Professor, Georgetown University, Edmund A. 
  Walsh School of Foreign Service, Security Studies Program......     2
Katz, Rita, Director, SITE Institute.............................    10

                                APPENDIX

Prepared Statements:

    Benjamin, Daniel.............................................    72
    Brachman, Dr. Jarret.........................................   113
    Hoffman, Dr. Bruce...........................................    47
    Katz, Rita...................................................    85

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
  CHALLENGES FOR THE SPECIAL OPERATIONS COMMAND (SOCOM) POSED BY THE 
                        GLOBAL TERRORIST THREAT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                      Washington, DC, Wednesday, February 14, 2007.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2212, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. I would like to call the meeting to order.
    I am without a gavel, so rather than just pounding the desk 
and looking silly, I will just call the meeting to order 
without the gavel. It doesn't look like a terribly unruly 
bunch. I think we will be able to conduct the hearing just fine 
without that.
    I want to welcome the witnesses today and welcome the 
members of the committee as well.
    As I discussed previously, I don't do opening statements. 
It is my goal to get to the witnesses as quickly as possible, 
to hear from you, and also to urge our witnesses to be as brief 
as possible.
    Now, in this case I think all of you have some pretty 
interesting information, but I have always found in hearings 
the most interesting information comes out in dialogue between 
the witnesses and the members, so we will try to get to them as 
quickly as possible.
    I will just say that we have called this hearing to get a 
picture of where al Qaeda and its various groups that are 
supportive of it to one degree or another--where they are at 
now, you know, five and a half years after 9/11, how they have 
metastasized, spread, where we have been able to contain them.
    And we have a very distinguished panel here that has 
studied that issue in great depth and I think will provide us 
terrific information.
    And specifically, the interest of this Subcommittee on 
Terrorism, a big piece of it is our jurisdiction over special 
operations forces, which I believe can be a critical component 
of this war.
    It is very difficult, to my mind, to take on al Qaeda in 
huge pitched battle, you know, conventional forces' efforts.
    But I do believe that our special forces in many different 
places of the globe can play a critical role in both directly 
hitting al Qaeda and also working with local communities to 
prevent them from getting a foothold. So that is the interest 
of the committee.
    And with that, I will turn it over to my very able ranking 
member, Mr. Thornberry, for any comments he has before we get 
started.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman. And I want to join 
you in welcoming our witnesses.
    I think this is an important hearing, in part because it is 
important for us to hear from folks outside of government. They 
give us a different perspective. And as you said, this is 
certainly a very distinguished panel.
    Second, I don't know of a more important topic that we 
could focus on. It is so essential that we understand our enemy 
and what we face, a point made, I think, in nearly all your 
written statements, that I don't know of a more important topic 
for us to hear from some of the country's leading experts.
    So I welcome you. I look forward to hearing what you have 
to say as well.
    Mr. Smith. Thank you very much, Mr. Thornberry.
    I will do a brief introduction of all four witnesses and 
then move on to their testimony one at a time.
    We have with us Professor Bruce Hoffman from Georgetown 
University and the Edmund A. Walsh School of Foreign Service.
    We have Daniel Benjamin, who is the director of the Center 
on the United States and Europe for the Brookings Institution.
    We have Ms. Rita Katz, director of the SITE Institute.
    And Dr. Jarret Brachman, who is the director of research, 
Combating Terrorism Center for the United States Military 
Academy at West Point.
    We appreciate all of you being here. You all have very 
lengthy and very impressive resumes, which I will simply 
stipulate to and turn it over to Dr. Hoffman to give his 
opening statement first.

     STATEMENT OF DR. BRUCE HOFFMAN, PROFESSOR, GEORGETOWN 
UNIVERSITY, EDMUND A. WALSH SCHOOL OF FOREIGN SERVICE, SECURITY 
                        STUDIES PROGRAM

    Dr. Hoffman. Thank you, Mr. Chairman and members of the 
subcommittee, for the opportunity to testify before you.
    Five and a half years ago, 19 terrorists hijacked four 
airplanes and changed the course of history. Just as we 
underestimated al Qaeda then, we risk repeating the same 
mistake now.
    Al Qaeda today is frequently spoken of as if it is in 
retreat, a broken and beaten organization, its leadership 
living in caves, cut off somewhere in remote Waziristan, 
incapable of mounting further attacks on its own and instead 
having devolved operational authority either to its various 
affiliates and associates or to entirely organically produced 
homegrown terrorist entities.
    Isolated and demoralized, al Qaeda is thus imagined to have 
been reduced to a purely symbolic role, inspiring copycat 
terrorist groups, perhaps, but lacking any operational capacity 
on its own--a toothless tiger.
    Al Qaeda, President Bush declared last October, ``is on the 
run.'' But al Qaeda, in fact, is on the march.
    It has regrouped and reorganized from the setbacks meted 
out to it by the United States and our coalition partners and 
allies during the first phases of the global war on terror 
(GWOT) and is marshaling its forces to continue the epic 
struggle begun more than ten years ago.
    More than ever, al Qaeda's revival reminds us of our 
continued failure to heed the advice of the Chinese strategist 
Sun Tzu. If you know the enemy and know yourself, he famously 
advised centuries ago, you need not fear the results of 100 
battles.
    Yet if there has been one consistent theme in both 
America's war on terrorism and our melancholy involvement in 
Iraq, it is our serial failure to fulfill Sun Tzu's timeless 
admonition.
    The Bush Administration's new strategy to surge 21,000 
American troops into Iraq is the latest fundamental misreading 
of our enemy's mindset and intentions.
    Let me first turn to al Qaeda today. Al Qaeda, in fact, is 
now functioning exactly as its founder and leader, Osama bin 
Laden, envisioned it.
    On the one hand, true to the meaning of the Arabic word for 
base of operation or foundation, meaning the base or foundation 
from which a worldwide Islamic revolution can be waged, and 
thus simultaneously inspiring, motivating and animating 
radicalized Muslims to join the movement's fight.
    On the other hand, al Qaeda continues to exercise its core 
operational and command and control capabilities, directing and 
implementing terrorist plots and attacks throughout the world.
    Indeed, ongoing investigations increasingly suggest that 
recent terrorist threats and attacks--the August 2006 plot to 
blow up ten planes in flight from Britain and crash them into 
American cities; the July 2005 suicide bus and subway bombings 
in London; and the two separate operations foiled in Britain 
during 2004 involving, on the one hand, bombings of a shopping 
center and a nightclub, and on the other hand, simultaneous 
attacks on economic targets in lower Manhattan, Newark, New 
Jersey, and Washington, D.C.--were all, in fact, coordinated in 
some way by al Qaeda and not, as is commonly assumed, cooked up 
by entirely homegrown, organically produced terror groups.
    Just as disturbing is the fact that these attacks were not 
directed against the soft and more accessible targets like 
subway and commuter trains, hotels and tourist destinations 
that the conventional wisdom held a degraded al Qaeda only 
capable of, but, in last summer's case, arguably against the 
most internationally hardened target set since 9/11, commercial 
aviation.
    This alarming development calls into question some of our 
most fundamental assumptions about al Qaeda's capabilities and 
intentions, given that the movement seems undeterred from the 
same grand homicidal ambitions that it demonstrated on 9/11.
    Thus, the portions of the National Intelligence Estimate 
(NIE) publicly released last September are right. We are just 
as vulnerable as ever, not only because of Iraq, but also 
because of a revitalized and resurgent al Qaeda that continues 
to plot and plan terrorist attacks.
    Senior British and security officials publicly stated that 
they had reached an identical conclusion in November as well.
    In a speech delivered later that month, Dame Eliza 
Manningham-Buller, the director general of the security 
service, or MI5, was unequivocal in her assessment of the 
threat posed by a resplendent al Qaeda. ``We are aware of 
numerous plots to kill people and to damage our economy,'' Dame 
Eliza stated.
    ``What do I mean by numerous? Five, 10? No, nearer 30 that 
we currently know of,'' she continued. ``These plots,'' she 
said, ``often have linked back to al Qaeda and Pakistan and 
through those links al Qaeda gives guidance and training to its 
largely British foot soldiers here on an extensive and growing 
scale.''
    Rather than al Qaeda rest in peace (RIP), then, we face an 
al Qaeda that has risen from the grave. Its dispersion 
following Operation Enduring Freedom has not meant that al 
Qaeda has become decentralized. The movement, in fact, is just 
as hierarchical as before.
    Its chain of command, however, admittedly is less effective 
and more cumbersome. But this is a reflection of how al Qaeda 
has been able to adapt and adjust to the changes imposed on it 
by the U.S.-led war on terrorism and how, indeed, the movement 
has coped with this new reality.
    Although it may not be the most effective way to run a 
terrorist organization, al Qaeda's core leadership has accepted 
that in order to survive and ensure the movement's continued 
longevity and, indeed, its continued attack capacity, it has to 
surrender the direct command and control, if not micromanaging 
capacity, it exercised before 9/11.
    In retrospect, too, it appears that Iraq has further 
blinded us to the possibility of an al Qaeda renaissance.
    America's and Britain's entanglement in that country the 
past four years and our overwhelming preoccupation first with 
an escalating insurgency and now with an incipient civil war 
has consumed the attention and resources of our respective 
countries' military and intelligence communities at precisely 
the time that bin Laden, Ayman al-Zawahiri and other senior al 
Qaeda commanders were in their most desperate straits and stood 
to benefit most from this distraction.
    Iraq has thus has a pernicious effect on both our 
counterterrorism policies and perceptions of national security. 
As the situation in that country deteriorated, one could take 
some solace in the President's argument that we were fighting 
the terrorists over there so that we don't have to fight them 
here.
    The plots and attacks against the United States in 2004 and 
again this past summer, along with the attacks in Madrid and 
London in recent years, effectively challenged that once 
comforting but now discredited argument.
    Al Qaeda in Iraq now. Our preoccupation with Iraq, 
moreover, has introduced yet another significant impediment to 
the war on terrorism. Withdrawing from that country, the Bush 
Administration has claimed in support of its new strategy, is 
exactly what al Qaeda wants. That would, as the Vice President 
said last month, ``validate'' the al Qaeda view of the world.
    Yet ironically, by staying the course, America is doing 
exactly what al Qaeda wants and, indeed, has long expected. The 
clearest explication of al Qaeda's strategy in Iraq was 
provided by the group's second-in-command, Ayman al-Zawahiri, 
on the occasion of the second and third anniversaries of the 9/
11 attacks.
    ``We thank God,'' he declared, ``for appeasing us with the 
dilemmas in Iraq and Afghanistan. The Americans are facing a 
delicate situation in both countries. If they withdraw, they 
will lose everything. And if they stay, they will continue to 
bleed to death.''
    In other words, with America stuck in Iraq, al Qaeda has us 
exactly where they want us. Iraq, for them, has been an 
effective means to occupy America's military force and distract 
U.S. attention while al Qaeda has regrouped and reorganized 
since the invasion of Afghanistan in 2001.
    Indeed, this was essentially the analysis offered last 
month in congressional testimony by the outgoing Director of 
National Intelligence, Ambassador John Negroponte.
    In contrast to both longstanding White House claims and the 
prevailing conventional wisdom, the annual threat assessment he 
presented to the Senate Select Committee on Intelligence 
painted a disquieting picture of a terrorist movement, al 
Qaeda, that is indeed on the march rather than on the run.
    In sum, America's stubborn refusal to change its policy for 
Iraq has arguably played right into al Qaeda's hands. And 
Zawahiri's prophecy about bleeding us to death has proven 
depressingly prescient.
    Iraq not only daily consumes American lives and treasure 
but has arguably enervated our military, preoccupying U.S. 
attention and sapping America's strength, precisely at a time 
when the threat posed by al Qaeda, the 2007 annual threat 
assessment warns, is increasing.
    But even if one dimension of Zawahiri's analysis has 
already been validated, it is still within America's power to 
prevent the other even more consequential dimension of 
Zawahiri's prediction from being realized, our losing 
everything.
    But this requires nothing less than a dramatic reversal of 
the current strategy for Iraq and accepting that even if it is 
beyond our capacity to solve the Iraq program, we should be 
moving without further delay to contain it from spreading and 
destabilizing the entire region.
    Redeploying the American military from Iraq to strengthen 
and build capacity among our key allies throughout the region 
could serve to affirm, not undermine, U.S. commitments there.
    It would also enable us to refocus our efforts more 
productively on countering the greater systemic threat to the 
region posed by al Qaeda's clarion call to radicalization and 
violence than to remain in Iraq as America's power is expended 
and confidence in U.S. leadership continues to erode worldwide.
    In conclusion, the war on terrorism has now lasted longer 
than America's involvement in World War II. Yet even today we 
cannot claim with any credibility, much less acuity, to have 
fulfilled Sun Tzu's timeless admonition.
    Indeed, what remains missing five and a half years since 
this war began is a thorough, systematic understanding of our 
enemy, encompassing motivation as well as mindset, decision-
making processes as well as command and control relationships, 
and ideological constructs as well as organizational dynamics.
    Forty years ago, the United States understood the 
importance of building this foundation in order to effectively 
counter an enigmatic, unseen enemy motivated by a powerful 
ideology who also used terrorism and insurgency to advance his 
cause and rally popular support.
    Although America, of course, encountered many frustrations 
during the Vietnam conflict, a lack of understanding our 
adversary was not among them. Indeed, as early as 1965 the 
Pentagon had begun a program to analyze Vietcong morale and 
motivation based on detailed interviews conducted among 
thousands of guerilla detainees.
    These voluminously detailed studies provided a road map of 
the ideological and psychological mindset of that enemy, 
clearly illuminating the critical need to win what was then 
often termed ``the other war,'' the ideological struggle for 
the hearts and minds of the Vietnamese people.
    Even if the fundamental changes required in U.S. military 
strategy to overcome the Vietcong's appeal went ignored, 
tremendous effort and resources were nonetheless devoted at 
least to understanding the enemy.
    Today, Washington has no such program in the war on 
terrorism. America's counterterrorism strategy continues to 
assume that America's contemporary enemies, be they al Qaeda or 
the insurgents in Iraq, have a traditional center of gravity.
    It also assumes that these enemies simply need to be killed 
or imprisoned so that global terrorism or the Iraqi insurgency 
will end. Accordingly, the attention of the U.S. military and 
intelligence community is directed almost uniformly toward 
hunting down military leaders or protecting U.S. forces, not 
toward understanding the enemy that we now face.
    This is a monumental failing, not only because decapitation 
strategies have rarely worked in countering mass mobilization 
terrorist or insurgent campaigns, but also because al Qaeda's 
ability to continue the struggle is ineluctably predicated on 
precisely its capacity to attract new recruits and continually 
replenish its resources.
    The success of U.S. strategy will therefore ultimately 
depend on Washington's ability to counter al Qaeda's 
ideological appeal and thus effectively address the three key 
elements of al Qaeda's strategy: one, the continued resonance 
of their message; two, their continued ability to attract 
recruits and replenish their ranks; and three, their capacity 
for continued regeneration and renewal amongst their base.
    To do so----
    Mr. Smith. I am sorry, Dr. Hoffman, we would ask for about 
ten minutes or a little over that. I just want to be fair to 
the other witnesses.
    Dr. Hoffman. That is absolutely fine.
    Mr. Smith. Do you have a quick sum-up?
    Dr. Hoffman. I have the last paragraph, if I could read 
that.
    Mr. Smith. Okay. Please, go ahead.
    Dr. Hoffman. Okay. To do so, we first need to better 
understand the mindset and minutiae of the al Qaeda movement, 
the animosity and arguments that underpin it, and indeed the 
regions of the world from which its struggle emanates and upon 
which its hungry gaze still rests.
    Without knowing our enemy, we cannot successfully penetrate 
their cells. We cannot knowledgeably sow discord and dissension 
in their ranks and thus weaken them from within. And we cannot 
fulfill the most basic requirement of an effective 
counterterrorist strategy--preempting and preventing terrorist 
operations and deterring their attacks.
    Until we recognize the importance of this vital 
prerequisite, America will remain perennially on the defensive, 
inherently reactive rather than proactive, deprived of the 
capacity to recognize, much less anticipate, important changes 
in our enemy's modus operandi, recruitment and targeting.
    Thank you very much, and my apologies.
    [The prepared statement of Dr. Hoffman can be found in the 
Appendix on page 47.]
    Mr. Smith. Thank you.
    Mr. Benjamin.

 STATEMENT OF DANIEL BENJAMIN, DIRECTOR, CENTER ON THE UNITED 
            STATES AND EUROPE, BROOKINGS INSTITUTION

    Mr. Benjamin. Mr. Chairman, members of the committee, thank 
you very much for the opportunity to testify here today.
    I believe American citizens are understandably confused by 
the many forms that the terrorist threat takes today, and I 
think that the potential for a devastating attack or series of 
attacks remains.
    Therefore, I believe it is imperative for legislators such 
as yourselves and policy-makers to do their utmost to clear 
away some of the misunderstandings that cloud this subject.
    Let me just begin by saying that I am delighted to have the 
opportunity to be joined by such a distinguished panel. I fully 
agree with Bruce's assessment that we have failed the first 
command of strategy, which is to know thy enemy.
    And he has said many things that I agree with--in fact, the 
overwhelming majority of them--and so I would like to skip 
around through my own testimony and try to elaborate on some 
other points that I believe still need to be brought out.
    As I said at the beginning, there are many different forms 
of the jihadist threat, and that is one of the real 
complications we face in dealing with it. I think Bruce has 
done an excellent job in summarizing the nature of the core 
group, the group that carried out the attacks of 9/11.
    Let me just add to that that it appears increasingly clear 
that whatever damage the organization suffered at the time of 
its expulsion from Taliban-ruled Afghanistan, those blows were 
certainly not fatal.
    On the contrary, al Qaeda's organization is strengthening, 
and it appears to have achieved its goal of recreating 
sanctuary in the federally administered tribal areas (FATA) of 
Pakistan on the Afghanistan border. And we can't rule out the 
possibility that it is operating in some safety in other parts 
of Pakistan in particular.
    Bruce has spoken about the Heathrow conspiracy, and I don't 
want to go over that ground again, but I do think that it 
underscores the fact that al Qaeda remains very much in the 
business of catastrophic terror.
    Had that conspiracy been successful, it would have rivaled 
9/11 in terms of the number of casualties it would have caused 
and the damage it would have done to the international aviation 
system.
    In the near term, there is little prospect that the threat 
from the core of al Qaeda will be diminished. The group appears 
well ensconced in the FATA, and the government of Pakistan 
shows little inclination to dislodge it.
    The recently concluded cease-fire between Pakistani 
authorities and the tribal powers indicate that Islamabad is 
tired of having its own forces pummeled and is unwilling to 
carry out more than the occasional symbolic strike on terrorist 
infrastructure.
    Other forms, however, of the jihadist threat also need to 
be discussed. And in my view, the three most important have 
derived--either have their origin or have derived great 
benefits from the war in Iraq.
    The West would have faced a significant challenge from 
jihadist violence no matter how it reacted after 9/11, because 
that was the world's most successful recruitment effort. But 
the invasion of Iraq gave the jihadists an unmistakable boost.
    Terrorism is about advancing a narrative and persuading a 
targeted audience to believe it. Although leading figures in 
the American Administration have often spoken of the terrorist 
ideology of hatred, U.S. actions have all too often lent 
inadvertent confirmation to the terrorist narrative.
    In its most bare-bones formulation, that narrative holds 
that America and its allies seek to occupy Muslim lands, steal 
Muslims' oil wealth, destroy their faith.
    Radical Islamists interpret much of history through this 
prism and as a result of our occupation of Iraq they are making 
considerable gains in convincing other Muslims that their 
version of history is correct.
    The invasion and occupation opened a new field of jihad for 
militants who were more than eager to take on U.S. forces in 
the Arab heartland.
    For the radicals, killing Americans and their Western 
allies is the essential task. By doing so, they demonstrate 
their bona fides as the only people determined to stand up for 
Muslim dignities. The presence of coalition forces in Iraq thus 
provided an irresistible invitation.
    Because in large measure of Iraq, three new categories of 
terrorists have emerged. The first group is comprised of self-
starters, often called homegrown terrorists. And it is probably 
true that we have exaggerated their importance to some extent.
    Nonetheless, it is clear, as we saw, for example, in the 
Madrid bombings of 2004, that there are now an increasing 
number of people in the world who are prepared to accept the 
bin Laden view of history and to enlist themselves in this 
struggle without having direct contact or certainly without 
direct and extensive contact with the network.
    Self-starters have appeared not only in Europe where they 
are most familiar, but also in Canada, the Maghreb, the Middle 
East and Pakistan. Iraq has been on the lips of all of the 
terrorists involved in the major conspiracies of the last few 
years.
    Two other groups, both centered in Iraq--the first, the 
foreign fighters. Contrary to the Administration's expectation, 
these were not the remnants of al Qaeda come to the killing 
field of Mesopotamia.
    Rather, these are people as scholars both from Israel and 
Saudi Arabia have shown, who were radicalized by their 
perception of what was going on in Iraq and who realized or 
came to believe that this was a legitimate defensive jihad for 
them to engage in.
    A last group that deserves attention and to my mind will be 
the most worrisome is comprised of Iraqi jihadists who have 
emerged from the turmoil of the last three years or four years. 
Today al Qaeda in Mesopotamia has become predominantly Iraqi.
    And there are any number of other affiliated jihadist 
groups. According to some reputable sources, there could be as 
many as 15,000 in their ranks.
    The chaos in Iraq has allowed for extensive training and 
development in terrorist tactics and urban warfare, including 
the increasingly proficient use of improvised explosive devices 
(IED).
    Without going into it in great depth, let me just say that 
I believe that this is a sanctuary that is far more useful to 
the jihadists than Afghanistan ever was.
    In addition, the jihadists will have a durable sanctuary in 
Al Anbar province in western Iraq from which they will be able 
to conduct operations throughout the region.
    And the intelligence community or members of the 
intelligence community have already suggested that they are 
looking for targets outside. Of course, in 2005 they bombed 
three hotels in Amman.
    Let me just underscore one point here. I know what the 
mandate of this committee is, but I think that there is one 
clear lesson in our experience in Iraq, and that is the 
instrument of military force is a highly problematic one for 
fighting terror, especially fighting an ideologically driven 
movement like the jihadists.
    There will undoubtedly be times when military operations 
against terrorists are appropriate, as they were in Afghanistan 
in 2001 and 2002. But confronting jihadists with military force 
too often glamorizes the terrorists. They can portray 
themselves as the standard-bearers of Muslim interests and that 
they are the only ones who are prepared to confront the hated 
occupier.
    As we have seen, the tableau of these fighters in action 
has had a galvanizing effect on others around the world. 
Military forces typically have a large footprint. Their 
presence can alienate exactly those individuals in a given 
community who we, as a matter of strategy, do not want to 
radicalize.
    Military action against terrorists often causes the death 
of many innocents, no matter how much care is taken. With tens 
and perhaps hundreds of thousands of Iraqi deaths during the 
years of the U.S. presence, inevitably there will be many 
Iraqis who have come to blame the tragedies that have befallen 
their families on us.
    We are short on time, sir, so I am going to abridge my 
remarks and simply conclude by addressing the one question of 
how much the jihadists wish to attack the United States at this 
point, because this is a question that comes up in virtually 
every discussion.
    And of course, it has often been cited by the 
Administration as proof of the success of their strategy that 
we have not been struck.
    Let me say it very briefly. We should not draw the 
conclusion that attacking the United States at this time is the 
jihadists' top priority.  I do believe this is the gold 
standard. I do believe they will want to come back and strike 
on the American homeland again.
    But the terrorists are getting what they need in Iraq. It 
is easier for jihadists to kill Americans there than it is in 
the United States, and those casualties provide the radicals 
with the proof they need to show the global community of 
Muslims of their devotion to the cause.
    Over the long term, the terrorist will seek to rebuild 
their networks and capabilities to attack the United States. 
But we should not make the mistake of ignoring what is going on 
abroad and thinking that in some way we have insulated 
ourselves by conducting this struggle far from home. What 
troubles foreign lands will inevitably come back to trouble us 
and our interests.
    And with that, I will end. Thank you very much.
    [The prepared statement of Mr. Benjamin can be found in the 
Appendix on page 72.]
    Mr. Smith. Thank you.
    Ms. Katz.

        STATEMENT OF RITA KATZ, DIRECTOR, SITE INSTITUTE

    Ms. Katz. Thank you. Chairman Smith, distinguished members 
of the committee, it is my pleasure and honor to offer some of 
my analysis on jihadist terrorism.
    I agree with the two speakers, Dr. Hoffman and Mr. 
Benjamin. In addition, though, what I would like to demonstrate 
more is why is it that al Qaeda has been so successful since 9/
11, showing a different angle from different kind of research.
    And if I come with one thing, one theme, after my brief 
testimony, I hope that it will be that the Internet is a 
crucial battleground in the war on terror that must be 
contested in a more effective way.
    Since the war on terror began after 9/11, the United States 
and the West have embarked a war on al Qaeda. Al Qaeda leaders 
like Osama bin Laden are probably hidden somewhere in the 
border, in the mountains between Afghanistan and Pakistan.
    Abu Musab al-Zarqawi and many other top al Qaeda operatives 
have been killed or captured. Coalition forces destroyed most 
of al Qaeda's training camps in Afghanistan and their 
headquarters. Yet the jihadist groups are not defeated.
    Despite being isolated and hunted, the leaders of the 
jihadist nevertheless maintain an active dialogue with their 
followers, issuing statements on a daily basis on the Internet 
to a worldwide audience.
    Jihadists continue to hold al Qaeda in their highest 
esteem, with localized groups today from all over the world in 
Iraq, Egypt, Algeria and elsewhere pledging their allegiance to 
Osama bin Laden.
    Post-9/11, bombings in Madrid, London, Bali, Istanbul and 
elsewhere proved to us that the war on terror is not over. To 
the contrary, I think that almost every country today face the 
threat of al Qaeda more than ever before.
    The paradox is plain: Despite very real and significant 
success in dismantling and disrupting the terrorists and their 
supporters, the terrorist threat remains and does not appear to 
be shrinking.
    Though military and law enforcement will always have an 
important role in disrupting the activities of the jihadist 
groups on the ground, it is important to understand that the 
jihadist networks will continue to evolve to the point where no 
gun, no bomb or assassination can harm them permanently.
    One primary source of the jihadists' resilience is the 
Internet. It is the Internet that enables the jihadi network 
today to continue to exist despite the military might of the 
United States.
    On the Internet, local jihadi networks all share the same 
virtual space, forming unified online jihadi community that has 
no physical boundary.
    While guns, IED and other weapons are necessary for the 
terrorists and remain very dangerous, the Internet is what 
enables the jihadists to coordinate, share information, recruit 
new members and propagate their ideology.
    If we do not treat the Internet as a crucial battleground 
in the war on terror, we will not be able to defeat this enemy. 
Just as an example, Abu Musab al-Zarqawi, the former head of al 
Qaeda in Iraq until his death, made the Internet his primary 
means of releasing information and communicating with his 
operatives and with al Qaeda's top leadership.
    He never used any other kind of media outlet. He publicized 
all his activities on his password-protected message board. And 
from being almost anonymous when the war started, he became the 
face of the insurgency.
    What he did on the Internet was immediately adopted by 
other Iraqi insurgency groups and from there to Afghanistan, 
Algeria, Egypt and many others. Currently, al Qaeda top 
leadership is adopting his method.
    The virtual jihadi network that exists on the Internet has 
replaced the traditional jihadi network that was destroyed 
after 9/11.
    As someone who lives within the jihadi community and spends 
most of my day with the jihadists on these password-protected 
message boards, I must say that it is one of the most 
addictive, interactive and informative experiences that 
fulfills the social needs of every jihadist, from video games, 
to making bombs, to religious justification, and just to great 
friendships.
    Every jihadi feels as though he is a part of the larger 
connected community. This overwhelming experience help explain 
why members of these online forums are suddenly announced as 
being dead as a result of carrying out a suicide operation.
    The joy and the pleasure the online jihadists share in 
celebrating such a death is astounding. Today, the virtual 
jihadi network on the Internet support the effort necessary for 
the survival of the jihadi group.
    The jihadi network, the virtual jihadi network, enables 
jihadist groups to continue with their propaganda, 
indoctrination, strategy, psychological warfare--which plays a 
very important role here.
    They set up their own local cells with virtual jihadi 
networks to communicate and coordinate. The jihadi ideologists 
provide ideology, short-term and long-term ideology. They even 
transfer funds with these message boards, all by the Internet.
    As al Qaeda restructured itself after 9/11, gradually 
decentralized, virtual jihadi cells started all over the world. 
These cells combine or consist members from around the world 
who may be located only remotely. They get to meet each other 
only in these message boards, only in these password-protected 
forums where they plot, chat and interact.
    As one notable example, of course, continental coordination 
in how the virtual network works is the example of the infamous 
Irhabi 007. He is a jihadi member. His real name was Younis 
Tsouli.
    He was arrested in England in October 2005 and indicted 
under the United Kingdom act of terrorism. Among his charges 
were conspiracy to murder, conspiracy to cause explosions, and 
many other charges.
    He was seen within the online jihadi community because he 
was one of the pioneers of who provided the jihadists with 
information on how to use the Internet in safe ways and how to 
hack into important websites, including American governmental 
website, and retrieve information.
    In March 2006 two Americans in Atlanta, Georgia were 
arrested and eventually charged with material support to the 
terrorist organization for plotting attacks on oil refineries 
in the United States. These men visited Washington, D.C. in 
spring 2005, recorded video footage of the U.S. Capitol and 
many other targets in D.C.
    The footage of these locations were found in the belongings 
of Irhabi 007 when he was arrested in the U.K., indicating that 
the two American terrorist suspects were indeed in contact with 
Irhabi 007 and were feeding him tactical information via the 
Internet.
    In addition, in June 2006 17 Canadians were arrested for 
plotting a series of truck bomb attacks in Canada. The 
investigation extended also, after their arrest, to Bosnia, 
Sweden, Austria and many other places, including the United 
States.
    The Canadians were also in contact with Irhabi 007 and with 
the Americans from Georgia. The connection between all these 
cells was online, in password-protected websites.
    Though the online jihadi network has benefitted the global 
jihadi movement greatly, at the same time it has provided us 
with an open window into the means and the methods by which 
jihadist groups operate today.
    By studying the various dimensions of the virtual jihadi 
network, we can learn about our enemy, including who they are, 
their location, ideology, trends and tactics, training--in 
short, we can defend ourselves better.
    While the Internet is vast and disorganized, the virtual 
network established an infrastructure that is extremely 
organized. This infrastructure enables jihadist groups to pool 
their resources, gathering information and sharing tactical 
information to the global jihadi movement everywhere in the 
world.
    The infrastructure also allows the jihadist to know 
immediately what is an authentic message and what is not 
authentic message--messages from al Qaeda and other groups. In 
my submitted statement--I am sorry that it was very long--I 
outlined in many greater details on how the jihadi movement 
online was established post-9/11, how they disseminate their 
information and how it is being structured.
    To fight the global jihadist movement, we can not only rely 
on classified information. Undeniably, classified information 
will always play an important role in the intelligence 
community.
    However, since the global jihadi movement exists in the 
public domain accessible to non-governmental organization, 
open-source methods of intelligence-gathering provide a wealth 
of intelligence that can result in strategic, operational and 
even tactical success.
    The SITE Institute has spent several years in infiltrating 
and studying, analyzing the online jihadi community and has 
been able to gather actionable intelligence from jihadists on 
the Internet.
    Once again, in my long statement, the submitted statement 
to the committee, I provided several examples illustrating how 
the SITE Institute's open-source intelligence was able to 
prevent potential attacks and provided lifesaving information 
to war-fighters.
    The challenge now is to infiltrate this virtual network and 
to weaken this driving force behind the global jihadi movement. 
Studying the online jihadi community empowers us.
    Before I close, I would like to provide just with one 
example on how open-source research into online jihadi network 
can result in actionable success.
    By monitoring and infiltrating the jihadi forum, the SITE 
Institute obtained intelligence information about some members 
of the forums that were leaving their own country of residence 
to join jihad.
    We contacted a Federal U.S. law enforcement agency to 
provide them with the information, but the agency was 
uninterested. The SITE Institute then tracked down the location 
of the specific individuals which came to Europe and contacted 
law enforcement agencies there, who immediately checked the 
information, appreciated it and prompted the arrest of the 
individuals.
    In closing, I hope that you all recognize the importance 
that the Internet plays in this jihadi community. And once 
again, I will refer you to my written statement.
    I would be happy to answer any questions. Thank you.
    [The prepared statement of Ms. Katz can be found in the 
Appendix on page 85.]
    Mr. Smith. Thank you very much, Mrs. Katz.
    Ms. Katz. Thank you.
    Mr. Smith. Dr. Brachman.

STATEMENT OF DR. JARRET BRACHMAN, PH.D., DIRECTOR OF RESEARCH, 
   COMBATING TERRORISM CENTER, UNITED STATES MILITARY ACADEMY

    Dr. Brachman. Chairman Smith, Congressman Thornberry, 
distinguished members of the committee, it is a true honor for 
me to be here and briefly testify to you.
    I am going to pull back a little bit and talk about the 
strategy and ideological dimensions of al Qaeda and, more 
broadly, the jihadi movement. I would like to begin by focusing 
your attention on someone who is considered the professor of 
the jihadi movement, a guy name Abu Musab al-Suri.
    He is known by several other aliases, but Suri is famous 
for saying a number of things, particularly that al Qaeda is 
not simply an organization, al Qaeda is not simply a network or 
a network of networks, al Qaeda is a state of mind, al Qaeda is 
a world view that anyone, anywhere can buy into.
    And so al Qaeda's goal, he argues, should be to maximize 
the number of people that can participate in this movement at a 
number of different intellectual levels of sophistication. So 
his goal, in his past 30 years of studying guerilla warfare, is 
to apply those lessons to scholarship and to education.
    Abu Musab al-Suri has written extensive numbers of 
writings, including a 1,600-page--including a number of 
videotape lectures, including a number of other lessons learned 
documents, where he goes through historical actions of jihad 
and tries to dissect them to understand what the jihadis did 
right, what they did wrong, and where they can learn.
    Many of these books and articles that he has written have 
not been studied by the U.S. Government and there are extensive 
lessons to be learned for us, and I will talk about that in a 
moment.
    But one of the most important things Suri does is clue us 
into his intellectual forebear, which is a guy named Abdullah 
Azzam, who is the godfather of jihad during the 1980's in 
Afghanistan.
    Abdullah Azzam was very famous for saying we don't just 
simply hand our kids rifles and say go out and fight. We give 
them comprehensive education about how to use a rifle, who we 
are using it against, who we are not using it against, and why.
    We need to apply this type of educational process, he says, 
to the jihadi movement today. This is where we have failed in 
the past 30 years to do. We have lost that because we have been 
harassed in all these different countries.
    So what we have seen over the past three years is a deep 
investment of resources by al Qaeda and by the broader jihadi 
movement into intellectual and ideological education, what Suri 
says--a reconstitution of the corpus of jihadi thought.
    We have seen these writings be translated. We have seen 
them in the possession of known terrorists, of dead terrorists, 
including the Madrid bombers.
    We are reading works by a guy named Abdel Kadr ibn Abdel 
Aziz, who generally is off the radar of most intelligence 
analysts because he hasn't written in 15 years. But this guy 
provides deep, deep intellectual legitimacy for the religious 
dimension of the jihadi movement and is actively being read by 
terrorist operatives.
    One of the most influential current jihadi thinkers alive 
today is a guy named Abu Mohammed Al Makdisi. He is a 
Jordanian-Palestinian. He hosts al Qaeda's online library. This 
is the library that contains over 3,000 books and articles. 
They are all available online. You simply go log on and you can 
download it.
    And these are what I would call the Mein Kampf of today, 
where the thinkers, the big brains, of al Qaeda and the jihadi 
movement lay out their strategic objectives, their ideological 
strengths and weaknesses. What you find reading these is that 
they are very candid about, again, their strengths and 
vulnerabilities.
    I would like to highlight three books--and these are three 
that are anomalous because they have been translated and 
available to researchers here in the United States--as an 
example of the type of literature that you can find in this 
library.
    The first book is called ``39 Ways to Serve and Participate 
in Jihad.'' And this is a book that says we understand that not 
everyone can get to the front lines in Iraq and Afghanistan, 
and that is okay, you may be elderly, you may be sick, you may 
be a child, but there is 39 other things you can do, or 39 
categories of behavior you can do, to help prepare for jihad or 
to fight jihad. I will just highlight two of them.
    One is he focuses on motherhood. He says if you are a 
mother and you are not able to go to the front lines and fight 
or serve in a nursing capacity, then you need to prepare your 
children by reading them bedtime stories, by showing them 
videos of beheadings and of successful operations in Iraq and 
Afghanistan, buying them strategically minded video games to 
help them think in terms of the logistics and the strategy that 
it takes to wage warfare, to buy them punching bags and putting 
the face of Ariel Sharon on it to inculcate this deep hatred.
    And so this is the type of activity that he is encouraging 
mothers to do if they can't fight.
    Similarly, if you are, say, a software engineer, then in 
your free time, he argues, maybe you should be designing a 
jihadi video game, uploading that to the Internet. You should 
be designing Web propaganda.
    It is very Marxist in the sense that from each according to 
their ability, to each according to the jihadi movement. 
Whatever you can do to support the movement, you can do. And 
so, again, this fits into Suri's mentality of proliferating the 
avenues of participation in the jihadi movement.
    The second book I would like to point your attention to is 
one called ``The Management of Savagery.'' It is written by a 
gentleman named Abu Bakr Naji, and it is perhaps the most 
intellectually sophisticated strategy book we have seen in a 
long time from the jihadi movement.
    He focuses on several areas of how to secure and exploit 
security vacuums. But some of the more interesting insights he 
draws our attention to is the need for young jihadi students to 
take anthropology and sociology classes, particularly in 
Western universities. He says these classes will help these 
students to understand the tribal breakdowns that you may see 
in Iraq and Afghanistan.
    He also advocates that they take classes in business 
administration programs and public policy courses, because this 
allows them, when they establish a security vacuum in a place 
like Al Anbar province, to move in a cadre of managers and 
public administrators into these areas to establish security 
and establish social services, something al Qaeda has been very 
poor in the past at doing.
    So Abu Bakr Naji really extends the intellectual 
sophistication, again, of al Qaeda strategists in a remarkable 
way. And this book is kind of a must-read if you are in this 
movement and you want to think strategically.
    The third book, then, I point your attention to is one 
called ``The Fantastic Myth,'' and this is a book written by 
Mohammed Khalil Hakaymah. He is a rising star in the movement.
    But what he does is say al Qaeda was successful on 9/11 not 
simply because they were tactically or operationally genius, 
but because they exploited a key weakness in the United States, 
which is our bureaucratic inefficiencies, our failure to share 
information.
    He says this is something that the United States has not 
resolved and it is something we need to be more cognizant of 
and exploit in a much deeper way.
    So the book is a case study, or three case studies, of the 
Federal Bureau of Investigation (FBI), the National Security 
Agency (NSA) and the Central Intelligence Agency (CIA). He 
outlines their internal operating budget, the location of all 
their field offices, and talks about some of the strengths and 
weaknesses of each organization and the collaborative process.
    Again, the point of doing this is to increase the awareness 
of members of this community in not just the electoral politics 
or the domestic weaknesses but really the bureaucratic 
inefficiencies that can be exploited within the government.
    Again, the point is that these books are widely available, 
widely circulated and widely translated. And they are being 
read. Tens of thousands of downloads are registered for each of 
these books.
    My argument, then, is that the writings of the jihadis, who 
themselves are the experts on their own movement, on their own 
strengths and their own vulnerabilities, need to be used by the 
U.S. and turned against them.
    And we have done that to some extent, and I believe Special 
Operations Command (SOCOM) has been at the forefront of this 
effort. Recently SOCOM, working in conjunction with West 
Point's Combating Terrorism Center, released a number of 
documents from the Harmony database.
    This database contains upwards of a million documents that 
are sensitive or classified. Many of them don't need to be, or 
could be readily sterilized and released to the public.
    And so SOCOM approached West Point, the goal being to 
introduce and bring scholars more in line with this 
counterterrorism effort. The problem is logistically there is 
not enough time, resources or translation capabilities to make 
more of these documents available in a more timely way.
    And I think that one thing that could be tangibly done is 
to help empower SOCOM to bring these types of intellectual 
insights to the war-fighters, because this is a strategic and a 
long-term ideological fight.
    Maybe I will stop there and we can move into the questions. 
Thank you.
    [The prepared statement of Dr. Brachman can be found in the 
Appendix on page 113.]
    Mr. Smith. I appreciate that last comment in particular, as 
it is something directly in the jurisdiction of this committee, 
and we will certainly work with SOCOM on that.
    And I appreciate all of your testimony. It is very, very 
insightful about the threat we face. Not exactly cheerful and 
upbeat, but then again, that is not your mission, and I respect 
that.
    I have a couple of questions, and then I want to turn to my 
colleagues.
    It seems that what has happened--and one of the things I am 
interested in doing is trying to figure out some way to 
describe this other than describing it as the jihadi movement, 
because as all of you know that sort of gives them something 
within the Muslim world right off the top, because jihad is not 
necessarily--you know, it is a good thing in the Muslim world. 
It means many different things. It doesn't necessarily mean 
violent struggle. And in giving them that off the top as a way 
of describing them, it is like describing them as freedom 
fighters. I don't have an idea off the top of my head, but we 
should describe them in a different way.
    But it seems like what they have done on the Internet, as 
Ms. Katz points out, in the books and the way you have 
described it, is basically taken any dissatisfaction in the 
Muslim world and translated it into, ``Okay, if you are 
dissatisfied, this is who you need to be with. We are speaking 
to your dissatisfaction.''
    And it covers a broad array. You know, some of it is not 
even economic. Some of these people are very well-off. Some of 
it is an expression of freedom. You know, their religion is not 
being properly expressed.
    And it strikes me that one of the biggest things we need to 
do is figure out a way to break that link, to basically say 
that just because you are dissatisfied in the Muslim world does 
not mean you have to follow these maniacs, quite frankly.
    And one of our problems in that--and I am curious to get 
your, you know, direct answer on that point, how you think we 
should go about breaking that link. But I think one of our 
problems is that, you know, we tend to in the midst of that try 
to promote a Western outlook.
    And I am trying to think of an example of this. But you 
know, in sort of encouraging them, you know, don't be like 
them, you have got to be more like us, you know, the West is 
where freedom is, is where opportunity is--you know, sort of 
the ``God Bless America'' speech, if you will, which strikes me 
as a spectacular mistake, because the Muslim world, you know, 
even if they don't like al Qaeda, they are certainly not going 
to want to be like us for a wide variety of reasons. Just 
basically you want to sort of be yourself. We wouldn't want to 
be like them to that degree either.
    So, you know, getting past that and finding some avenue for 
that dissatisfaction that is more legitimate than following al 
Qaeda--I am curious what you have to say about that.
    And also, you know, as I was listening to your testimony, 
one of the questions that occurred to me was, is there any good 
news out there? And I imagine there is, and I would imagine 
some of the good news is that there has to be sort of splinters 
within these various groups.
    You know, they can't all be saluting bin Laden and saying 
you guys are making all of the right decisions here. There has 
to be some dissatisfaction within their--which would be, you 
know, wise for us to exploit. We have seen some of that in 
Iraq, for that matter.
    So that is one question. I realize it could take you 40 
minutes to answer that, theoretically. I have only 5 minutes, 
or 2.5 minutes at this point. We will allow you a little bit of 
time.
    We will get to my other colleagues, and I will ask my 
second question after that. But if you could take a stab at how 
we sort of separate that dissatisfaction from following al 
Qaeda.
    So, Mr. Benjamin, you look like you had something to say 
there, so I will yield to you first.
    Mr. Benjamin. Well, Mr. Chairman, you are absolutely right 
that the genius of al Qaeda and other radical Islamist groups, 
if you want to call them that instead of jihadists, which is 
what they call themselves--but their genius is translating 
grievances into a religious idiom. And the idiom has a lot of 
authenticity because they are drawing on Muslim texts.
    Mr. Smith. And also legitimate grievances.
    Mr. Benjamin. Some of the grievances are; some aren't. Some 
of them are being projected onto us even when we may not be 
guilty. But it is important to remember what some of these 
grievances are.
    They are not just our presence in the Middle East, for 
example, but also their resentment of suffering under 
autocratic rule for so many years, and this they blame us for 
in large measure because of the belief that we have supported 
these local autocrats. And that is, you know, at the core of 
their anger.
    It is going to be very, very difficult to break through 
that mindset because the mindset is validated by the people 
everyone is talking to. And if you look at the polling--that is 
to say, within these societies. And if you look at the polling, 
disapproval of the United States is, you know, at an 
extraordinary peak, or that is to say our image is at an 
extraordinary low.
    It seems to me that we do need to have a positive agenda 
for the Muslim world, and if a positive agenda for the Muslim 
world is bringing democracy through the end of a rifle barrel, 
we have got a problem, because that really does conform more to 
the al Qaeda narrative.
    I give the Administration credit for putting 
democratization on the agenda, and I think that that is part of 
a long-term positive program, positive agenda, for the Middle 
East. But we can't get there from here.
    And we need to also talk about economic reach of a nation, 
modernization, a number of different things--the rule of law, 
stronger institutions in that part of the world. These are all 
projects that are generational, that we cannot do ourselves, 
that we need help from our allies on. But I do think that there 
is an opportunity to break that hold.
    Now, you asked about good news, and I think that one piece 
of good news is that although an awful lot of people in the 
Middle East and in the broader Muslim world view us very 
negatively, they don't all view us in exactly the way that bin 
Laden would like them to.
    And in fact, while we have seen a fair amount of 
radicalization, we have not seen mass mobilization. We don't 
see countries falling over one after the other, embracing 
radical Islam.
    In fact, the polling is quite clear that while people may 
admire bin Laden for standing up to the United States, they 
don't want to live in the state of bin Laden. They don't want 
to live in a caliphate. They don't want to go into an archaic 
sort of Taliban-like existence that he has sketched out for 
them.
    So there is an opportunity there. There is room for 
improvement. My own view is that although there is a clear 
problem with leaving Iraq in that we validate part of their 
story, which is that we are paper tigers, we would at least 
stop validating another part of it, which is that we are 
occupiers.
    And once we are out of Iraq, it seems to me that we will 
again be in a position where we can articulate and act on a 
positive agenda for the Muslim world and rehabilitate ourselves 
in their eyes, to some extent.
    Mr. Smith. Thank you.
    Anybody else want to take a quick stab at that before I 
move to Mr. Thornberry?
    Dr. Brachman. Sir?
    Mr. Smith. Yes, Dr. Brachman?
    Dr. Brachman. Chairman Smith, the al Qaeda strategists and 
ideologies are very candid about their own internal fractures, 
and there are a number of them.
    Al Qaeda and what is, I guess, more or less called the 
jihadi movement, for better or for worse, grows out of a 
broader movement called the Salafi movement, which is often 
inter-used with Wahabbi.
    But the Salafi movement actually consists of a number of 
schools of thought, many of which are pitted against one 
another for resources, for recruitment, for prestige. And in 
the West, analysts tend not to be sensitive to those internal 
breaks within the Salafi movement, between those schools of 
thought, against the jihadis and likewise.
    So I think there is some deep traction that can be gained 
by having a more granular understanding of the broader Salafi 
movement, those internal politics of that.
    But where we see Muslims most disagreeing with al Qaeda, I 
think, are on two fronts. First are attacks by Muslims on 
Muslims. That never plays well.
    And this is again why Abu Musab al-Zarqawi was criticized 
so aggressively by the al Qaeda high command, particularly 
Zawahiri. There is a guy named Attea and a number of these 
other big-name, you know, iconic figures in the movement were 
very aggressive about criticizing him for that.
    The second is the application of something called 
``takfir'', or the ex-communication of one Muslim by another 
Muslim. And this really centers on when you say you have the 
right to overthrow an Arab government because they are not good 
Muslims.
    And so this is a very contentious, you know, theme 
throughout Islamic history, but the jihadis have been very 
brazen about their application of takfir, or ex-communication. 
And this doesn't play well in the broader Muslim world. And I 
think, again, this is something that can be exploited to great 
effect if we understand that.
    But the two places I think we really need to focus our 
attention in order to break the link between taking grievances 
and connecting that to al Qaeda is in--again, to draw your 
attention to an Arabic concept called ``al-wala and al-barah,'' 
and this is a concept that means love all that is Islamic and 
hate all that is not.
    And so the implication of hating all that is not in line 
with God's law is that you destroy it, or you do what you can 
to destroy it. The jihadi movement and al Qaeda has been very 
successful, I think, in monopolizing that discussion and in 
broadening the sphere of what is not Islamic.
    And so I think what we need to do is work with our local 
allies. And this is a very local process--is to push that back 
down. How do you constrain that which is conceived of as non-
Islamic?
    And the second place I would just point your attention to 
is another Islamic concept called ``Tawhid'', or the unity of 
God. And this is the basis upon which most al Qaeda strategists 
say we cannot participate in democratic elections, because 
man's law violates God's law, and so if you violate that, then 
you are violating the oneness of God, which is a deeply held 
Islamic concept.
    And so rethinking what is in line with God's law versus 
human law is an important discussion that needs to be happening 
within the Islamic world.
    Mr. Smith. Thank you.
    Ms. Katz, quickly, and then I will turn to Mr. Thornberry.
    Ms. Katz. Well, first of all, I have to say that there is 
no magic solution to this problem, definitely not. It will take 
some time to counter this ideology.
    And second, on the record, just to make sure that we will 
not mix two things, the jihadists--because we can't find right 
now a better word--and Islam or Muslim, because we are talking 
and we are switching from the Muslim world to the jihadists and 
the terrorists. So there must be a strict differentiation 
between the two. I think that most of us were talking about, in 
general, about the jihadi Muslims.
    Regarding how to counter the ideology, I want to share with 
you an example, for instance, of a fatwa that was issued. Two 
years ago when the war in Iraq was on its way--actually, it was 
already going on--the election for the democratic government 
was going on, and there was a question of whether or not Sunni 
Iraqis should participate in the police or not, because most of 
the majority is Shia, shall we participate?
    And the Arab world actually needed help from top scholars 
to answer that question, and who can be better than the scholar 
by the name--and I am sorry to confuse you with names, but his 
name is Yusuf al-Kardawi. He is one of the most prominent, 
knowledgeable scholars in the Muslim world today, represents 
the Muslim Brotherhood.
    He has even a T.V. show in Al Jazeera where he said, yes, 
they can join and be part of the new forces in Iraq. That 
didn't mean anything to the jihadi community. They cared 
nothing about it. To the contrary, they started calling Kardawi 
as a non-believer or someone who is breaking from the movement 
of Islam.
    They have their own scholars instead issuing their fatwas 
for them. They immediately posted the question on a Hesbah 
forum, which is the forum dedicated at that time to Abu Musab 
al-Zarqawi, his people, his propaganda. And they ask their 
scholars to issue a fatwa: is this correct or not.
    And immediately, in less than 24 hours, when Zarqawi issued 
his fatwa on Al Jazeera, two scholars, Attea Allah and Hussein 
bin Mahmoud, issued two fatwas. Both scholars are virtual 
scholars. We have no idea who they are because of security 
reasons. But if these individuals said it is not allowed, then 
it is not allowed.
    In Hesbah alone there is about 10,000 members. Almost every 
primary source which I explained what it means on the jihadi 
community have about 10 to 20. Hesbah is a forum that is close 
to the people. If you were not part of the regional cell, you 
can join it.
    So you know, we can continue going and thinking on how we 
can counter this ideology, but before we do that, we really 
need to go to, again, what Dr. Bruce Hoffman mentioned earlier, 
know the enemy.
    And I feel with all my interaction with government 
officials, with scholars and so on, that as one who lives the 
jihadi community, I see things differently, because they have 
their own mechanism.
    Now, regarding attacks on Muslims, the Jordan attack may be 
the perfect example. But I don't agree that al Qaeda disagree 
and do not accept attacks on Muslims. To the contrary, Ayman 
al-Zawahiri, the second man of al Qaeda, was the first one to 
carry out attacks against Muslims.
    He carried out his first attack in Egypt where a 13-year-
old girl was killed. That was his first attack there. Then he 
was put in jail. He left, and he joined al Qaeda in Afghanistan 
long after.
    The embassy bombing in Nairobi, in Kenya and Tanzania, 
killed more Muslims than Americans. I think 13 Americans were 
killed. About 200 Muslim were injured or killed. And Osama bin 
Laden said afterward----
    Mr. Smith. And with that, Ms. Katz, if I could--my ranking 
member has been very patient. I want to make sure I give him a 
chance.
    Ms. Katz. Sorry.
    Mr. Smith. Did you have anything else on that point, or can 
I turn to Mr. Thornberry?
    Ms. Katz. No, that is it.
    Mr. Smith. Okay, good.
    Mr. Thornberry, please? I appreciate your patience.
    Mr. Thornberry. No, I appreciate the discussion, because I 
think it is very helpful and enlightening for us.
    I guess I want to follow up a comment you made, Ms. Katz, I 
guess the next-to-last point.
    Each of you come with different expertise, slightly 
different viewpoints. But based on what you know, what grade 
would you give the United States government understanding of 
the adversaries we face?
    And let me break it down, 1-A and 1-B. One-A is the 
intellectual basis upon which they do what they do. But part B 
is the personal reasons that--how do you grade our 
understanding of what it is that causes someone, perhaps coming 
from a middle-class family, to choose to strap explosives 
around their waist and blow up a bunch of people in a 
marketplace?
    There has to be a personal decision as well as an 
intellectual foundation that draws these people to this radical 
jihadi approach. And I would just be interested, from each of 
you, roughly, what grade would you give, based on your 
understanding, the government, how well we understand 
intellectually and personally these people.
    Dr. Hoffman, do you want to start?
    Dr. Hoffman. Sure. Well, I would give us actually failing 
grades.
    I think that we, especially as Dr. Brachman has described, 
that we have made some inroads to understanding the 
intellectual basis, so that I would grade higher, but I think 
that that is just the first step.
    It is what we do with it and how we implement it, which I 
think has been singularly problematical. And this goes back to 
the fact that I don't think we have done our homework.
    For example, the reason during the Cold War that Radio Free 
Europe or Radio Liberty were so effective in the messages that 
they beamed--the Iron Curtain is because, just as the chairman 
said, they didn't view this through an American prism. They 
didn't see the problem from the United States.
    In the 1980's, they conducted surveys of more than 200,000 
people who either traveled regularly to and from the Iron 
Curtain or emigres, and asked them what they were listening to, 
where they got their news from, what did people behind the Iron 
Curtain believe, what were the sources of derision, for 
instance, in government statements.
    And then they took all that information and they packaged 
exactly the kind of shows and the kind of messages that their 
audience was receptive to, because they knew their audience. 
This is one failing.
    The second one, which Mrs. Katz talks about, is the power 
and the growth of the Internet. According to an Israeli 
scholar, Gaby Weimann, who has written a book, Terror on the 
Internet, there are now 5,200 terrorist and insurgent Internet 
sites, yet the Voice of America allocates only 6 percent of its 
budget to communicating via the Internet.
    Now, on the one hand, we have seen spectacular growth. 
Professor Weimann says that it has increased by more than 1,000 
over the past two years. So it is clear, exactly as Mrs. Katz 
said, that the jihadis and the terrorists see the Internet as 
their main mode of communication.
    Yet it is inexplicable that we devote so few resources to 
countering this.
    Mr. Thornberry. I agree.
    Mr. Benjamin, how do you grade our understanding?
    Mr. Benjamin. Well, the first question, of course, is, who 
is ``we''?
    Mr. Thornberry. The government, U.S. Government.
    Mr. Benjamin. Right. You know, in my dealings with the 
intelligence community, I would have to say that some of those 
who are in the highest positions of responsibility and dealing 
specifically with these issues have quite a sophisticated 
understanding.
    It is very hard to translate that into effective policy, 
not least because our initial steps in the war on terror 
committed us heavily in one direction, and that was in the 
direction of using military force and of not--and that 
foreclosed a lot of other options in the ways that we would 
deal with that.
    To extend Dr. Hoffman's discussion of why we succeeded in 
the Cold War and why we are not doing so well now, our message 
is failing to jam the jihadists' narrative for the simple 
reason that to most of them, the facts and the message are not 
aligned.
    In other words, if we say you know, what we really want is 
peaceful modernization of the Muslim world, we want everyone to 
enjoy the same benefits of globalization if they stick to the 
rules of the road, and so on and so forth, and that is a much 
better way to go than trying to overthrow the existing power 
structure in the world, well, that is not getting through 
because we are seen as being a threat to, you know, various 
Muslim nations.
    Mr. Thornberry. Okay. I appreciate it. I want to----
    Audience Member. Stop the war!
    Mr. Thornberry. I want to get to Mr. Cooper in just a 
second.
    Mr. Smith. All right.
    Audience Member [continuing]. That will stop terrorism in 
the world.
    Mr. Thornberry. Ms. Katz, you are the one that prompted 
this in my mind. Based on your dealings, how well do you think 
we understand the intellectual basis that draws people to this 
movement and the personal decision that someone makes to join 
it?
    Ms. Katz. You blame me, ah? [Laughter.]
    Mr. Thornberry. No. I mean, I think it is true----
    Ms. Katz. No, I think it is a----
    Mr. Thornberry [continuing]. Before you ever have a 
strategy to deal with this problem, you need to understand it.
    Ms. Katz. I think it is a very, very important question, 
and I think they have no idea what is happening. I mean, in my 
language it is like--for them, the Internet is a mess, what we 
say in Hebrew, balagan. They have no idea what is happening.
    If I could share with you an example that maybe can 
illustrate how little--and I am sorry to criticize it this way, 
but it is unfortunate. Once again it goes to the point that we 
don't know the enemy. And I don't think that there is enough 
understanding on how they are doing things.
    And this is an example. A year ago, and probably you 
remember, there was a very important letter that was 
intercepted from Ayman al-Zawahiri somewhere in Afghanistan to 
Abu Musab al-Zarqawi, the dead guy of al Qaeda in Iraq. And in 
the letter, he basically outlined his message, telling him how 
he should proceed.
    The interesting part is in the beginning of the letter, 
Ayman al-Zawahiri tells his fellow Zarqawi, he says, by the 
way, thank you very much for your public speech on May 2000 
whatever. It was an Internet speech that he delivered to al 
Qaeda telling them how he is going to continue.
    But later in the letter, he explains to him how he should 
proceed in the war in Iraq, gives him a very, very important 
strategy, and at the end he closes the letter with the 
following sentence. He says, ``And if you go to Fallujah, say 
'hi' to Abu Musab.''
    And that was a sentence at the end that many people didn't 
have an explanation to if he said it to Zarqawi, Abu Musab al-
Zarqawi. Why is he telling him, if you go to Fallujah, say 'hi' 
to Abu Musab?
    And the media started criticizing that letter, saying that 
this is not an authentic letter, this is not something that we 
should pay attention. Negroponte's spokesman came out and said, 
``We are telling you, this is an authentic letter, and we 
should look at it as an authentic--we cannot explain that 
sentence.''
    It was only when I read that sentence I realized that this 
is an authentic letter, because the whole slogan of the war in 
Iraq at that time was, ``If you go to Fallujah, say 'hi' to Abu 
Musab.''
    It was if you went to any of the jihadi forums, any of the 
jihadi propaganda, that is how it started. That is how it ends. 
Every message by Zarqawi was in the background with a song, 
because it was a poem that was written, later changed to a 
song.
    When I saw the responses of the U.S. Government where they 
said, ``Look, we can't explain that to you,'' I said, where is 
all the thousands of translators?
    And I myself cannot understand that, because when you are 
just a translator, you know, are you told to translate 
something. You are missing the environment. You are missing the 
climate of how people are communicating and what happens 
online.
    This is just one example that they couldn't understand it. 
I think that there needs to be much more done in understanding 
the mindset of the jihadists. Do we understand now what makes 
someone leave everything and go on jihad? No.
    But if they will share more the stories, individuals that 
are produced online on a daily basis--you see a video of a guy 
who has his own family in Morocco, sells his store, gives away 
everything, takes the money and goes to Iraq.
    Every study we had before about Hamas and Palestinian 
Islamic suicide bombers do not apply in the war today on jihad 
either in Iraq or Afghanistan.
    Mr. Thornberry. Thank you.
    Mr. Chairman, if I could ask Dr. Brachman to comment. He 
has, I think, a very interesting proposal about setting up a 
center to study and learn better.
    You obviously understand a lot of the intellectual basis, 
but what grade would you give our government?
    Dr. Brachman. Sir, in terms of the intellectual foundations 
to your point, I will say there are pockets of very deep 
understanding throughout the government, but, again, these are 
pockets that haven't been connected.
    And I mean, these words are difficult. These concepts are 
not intuitive to most senior policy-makers in the West.
    Mr. Smith. Sorry to interrupt.
    Dr. Brachman. Yes, sir.
    Mr. Smith. I mean, you are, to some degree, part of our 
government, so we get to take credit for you. That is one 
point.
    And I say that somewhat facetiously, but also to point out 
that, you know, listening to you, you obviously have, you know, 
the type of understanding that Mac is talking about. Do they 
not make proper use of you within the broader government 
structure, within SOCOM, within other places?
    I mean, I guess I--and I am trying to enhance on Mac's 
point there that, you know, because obviously--and I have had 
that same--I think Mr. Benjamin pointed out, there is some 
intel people like you who, bam, I mean, they have a 
sophisticated knowledge level.
    So the knowledge is there somewhere. Are we not moving it 
around in the proper way to make sure that people who need to 
know it know it?
    Dr. Brachman. Sir, from my perspective, Department of 
Defense (DOD) has been among the lead organizations--the 
combatant commands, specifically SOCOM and Central Command 
(CENTCOM)--have been very forward-thinking and very aggressive 
in trying to bring scholars and analysts into the war-fighting 
process.
    But to your point, I think there needs to be more senior-
level and vocal dedication to making this a war of ideas and 
understanding and empowering and resourcing that war. And so I 
guess, again, we have deep pockets of understanding 
selectively, but we need to bring those together.
    And it takes time. I mean, we are in the beginning of a 
long fight.
    Mr. Smith. Thank you.
    Mr. Cooper.
    Mr. Cooper. Thank you.
    Very helpful testimony. I have a bunch of questions that 
hopefully can be answered with short answers.
    What is the degree of understanding at the U.S. Military 
Academy of these issues? Like in the graduating class of X-
thousand, how many get it?
    Dr. Brachman. Well, if they take my class, sir, hopefully 
all of them get it.
    Mr. Cooper. How many are in your class?
    Dr. Brachman. About 300 go through our classes in the 
Combating Terrorism Center a year. But we have the opportunity 
to touch every cadet that goes through West Point in some 
courses and guest lectures throughout the academy.
    But the fact is, by setting up this center, West Point made 
a clear statement that this was something that they had to 
teach as part of the standard curriculum for cadets.
    Because the cadets, I mean, they know within a year they 
will be in Iraq or Afghanistan. And they don't have time, once 
they get on the ground, to learn a lot of these bigger issues.
    So the cadets are highly motivated to learn this, and there 
is a lot of incentive within the academy to make sure they get 
the very best training and experiences.
    Mr. Cooper. Help me understand. Is there a difference 
between the different terrorist groups and their Internet 
savvy? Like is al Qaeda better than Hezbollah or Jaish al-Mahdi 
or----
    Ms. Katz. Oh, yes. There is a significant difference--a lot 
of differences. But, you know, talking about this--there was a 
very interesting incident today where a Shia group--this is one 
of the first times we have seen something like that--posted a 
video of the American soldier who was kidnaped in Iraq, 
American-Iraqi soldier, on a Shia site.
    There is a very big difference--while you see that the 
Sunni insurgency or the Sunni-al Qaeda-affiliated forums, 
message boards, are more sophisticated, because they need the 
Internet. It is more interactive basis. It is not a static 
website.
    It is a message board where people can communicate and they 
can receive the messages from the leadership. Most of them are 
password-protected forums that you need to be a member.
    The Shia forums are more--I would describe them--if we 
talk, for instance, about forum like Muqtada al-Sadr's forum, 
Jaish al-Mahdi, they are less mature. Many of them are not 
password-protected. But they don't use it as their primary 
source. It is a secondary source.
    Most of the recruitment is within Iraq. It is not fighters 
that they import to the country and propaganda that they try to 
disseminate over the jihadi world.
    Mr. Cooper. So if we were going to try to define the 
audience like we did successfully in World War II and the Cold 
War, should we focus first on the Sunni?
    Ms. Katz. Oh, definitely, because the Sunni is the real 
threat right now.
    However, having said that, that doesn't mean that we should 
forget about the Shias. The Shias are serving--not all the 
Shias. The radical forms of the Shias, like Muqtada al-Sadr and 
Hezbollah definitely, are a very important threat that we 
should consider also.
    But the Sunnis are the more immediate threat.
    Mr. Cooper. What is the problem in getting translations of 
all these books and documents that Dr. Brachman was talking 
about?
    Ms. Katz. If I can----
    Mr. Cooper. Is it funding? Is it disorganization? Is it 
lack of interest? Sheer volume?
    Mr. Benjamin. It is a small market.
    Dr. Brachman. And if I could add, part of it, sir, is 
metrics. We lack metrics for understanding what are priority 
texts to translate and what aren't.
    And again, the al Qaeda library makes it very easy for us, 
because they keep track of the number of times these books are 
downloaded, so if we use that as our metric, you know, how many 
people are reading these books, and then translate it from 
there--I mean, that is one start.
    But these books are always popping up in smaller articles. 
But again, my proposal of getting an entity within the 
government somewhere that is dedicated to specifically mining 
the strategic texts and then using those not just as academic 
insights but as building blocks for making policy, long-term, 
you know, strategy out of, I think that would make a big 
impact.
    Ms. Katz. If I may say something about this, as an Arabic 
speaker, the problem is not only translate all the material. I 
mean, there is tons of material out there. I think that the 
most important thing is to translate what they say.
    That is why when we realized that there is a problem when 
it comes to translation and that the language is providing some 
kind of a problem for the military, the SITE Institute set up 
something called the SITE Intelligence Service which--on a 
daily basis we provide our subscribers information on what is 
the latest from the jihadists.
    It is not only the tons of books, because I can't assure 
you that all of them sit and read all the big books, but they 
do select some items. And we usually go through the jihadis' 
message boards, see what is the most important to them, what is 
the latest, what are they discussing, and that is among the 
items that we will decide to translate.
    However, that doesn't mean that should forget about the 
1,600-page that was mentioned earlier. This is a very important 
book that--I don't know of any government agency that 
translated the book. And I know that when people were looking 
for that book, they contacted us for the copy.
    I myself read the book from cover to cover. It is very 
important. That provides the jihadists with, ``Here is your 
target, here is how you set up your own cell, here is how you 
continue with your own jihad.''
    Mr. Cooper. Help me understand why there isn't more of a 
reaction when a legitimate imam has a fatwa that is overruled 
by nobodies. Why isn't there more power in institutional Islam 
to enforce the legitimate fatwa?
    Mr. Benjamin. A quick stab is that there is a crisis of 
authority in Islam. I think a lot of scholars would agree on 
that. And there is no hierarchy that determines--at least in 
most countries; there is in Saudi Arabia. But for the most 
part--and there is in Egypt as well.
    But for the most part, there is not a hierarchy. There is 
not a universal church. And as a result, we find that a lot of 
upstart imams consider themselves empowered. They don't have--
many of them don't have formal training.
    Mr. Cooper. Take Grand Ayatollah al-Sistani. He is not----
    Mr. Benjamin. Well, that is Shia. But I am really just 
talking about the Sunni world here. There is a hierarchy in the 
Shia world that is very consequent, very effective.
    But in the Sunni world, we don't see that. And it is a 
highly fractured world. And you know, part of what it is we are 
up against is, in fact, this crisis of authority, that so many 
people have so many different interpretations of Islam.
    And in fact, the very notion that we have a jihadist 
movement--one of the things that is going on at the core of 
this is an effort to elevate jihad as an activity almost to the 
level, you could say, of a sacrament, which it is not 
historically in Islam.
    So there are very, very big disagreements over what the 
faith is really all about. I will cite here just one person, 
Richard Bulliet, a professor at Columbia and one of the leading 
scholars of Islam in our country, who said at the street level 
there is no agreement on what the fundamental tenets of Islam 
are these days.
    Mr. Cooper. But surely showing your own children beheading 
videos is not a tenet in any legitimate religion. That would 
seem to overstep the bounds of any conceivable----
    Mr. Benjamin. Well, I dare say that there are plenty of 
people in some different very tumultuous places in the world in 
which--who would disagree with you.
    You know, Dr. Hoffman mentioned Gabby Weimann. You know, he 
has extensive files showing in, for example, the Palestinian 
territories games in which children are encouraged to imitate 
suicide bombers, you know. There is some very grim stuff out 
there.
    Mr. Cooper. I don't want to overstep my time limit.
    Mr. Smith. If I could, I wanted to ask a couple more 
questions, and then I will go to Mr. Saxton, and then we can go 
back and forth more.
    I am sorry, I apologize. I didn't see you there at first.
    Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman, very much.
    Continuing on the crisis of authority, as you put it, how 
large of a figurehead is Osama bin Laden currently?
    Ms. Katz. Within what community? Within the jihadists? The 
Arab world? I mean, that is----
    Ms. Castor. Explain that.
    Ms. Katz. And that is really something that we should maybe 
talk about. We all talk about here the jihadi Sunni network. 
How large the jihadi community is--it is not something that we 
can really number. I think that that is one of the reasons that 
we say al Qaeda is growing.
    Al Qaeda today is combined of--it is more an ideology, the 
ideology that for those of you who hate America, we are here 
for you. For those of you that hate that Iraq was occupied by a 
foreign source, we are here for you.
    That is the kind of ideology that is being adapted by the 
jihadists. Most of the jihadists are the Salafists. And so that 
is the network that is being disseminated more to other people, 
the Sunni Salafist jihadists.
    Most of the Arab world is not the jihadi world. Most of the 
Arab world is combined of Sunnis and Shias that themselves--
almost every central government today in every Arab country is 
trying to find the phenomena of jihadism, because jihadists 
within every country today is trying to fight the government.
    That is part of what al Qaeda basically tried to teach all 
their members for many, many, many years. America is one thing. 
It is easy to recruit the jihadists when you go with the slogan 
let's all attack America, we all hate America.
    But in fact, it really started with him hating or going 
against the Saudi regime, with Ayman al-Zawahiri going against 
the Egyptian regime, with other individuals going up--Abu Musab 
al-Zarqawi going against the Jordanian regime. They did not 
accept these regimes as legitimate.
    They all joined together, and they set up--easy to recruit 
people--today is when you go and say, ``You know what, we have 
a joint enemy, that is America.'' But in fact, today there is, 
really within the jihadi community, there is very important new 
trends that we should look into them.
    For instance, in the summer a group by the name Al Gamaah 
Islamiya, the Islamic group--it is an Egyptian group that has 
not been part of al Qaeda--had a split between themselves, and 
part of it went ahead with Hakaymah and they pledged allegiance 
to Osama bin Laden. This was a group that was quiet--lived 
peacefully with the Egyptian government. Suddenly they are also 
joining Osama bin Laden.
    In addition to that, four months ago an Algerian group, a 
local jihadi group called the Salafist Group for Call and 
Combat--I don't want to say too many names or confuse you with 
names, but they were always a local Algerian group fighting the 
Algerian Administration.
    Suddenly they came and they said no, we are part of bin 
Laden, we are pledging our allegiance to Osama bin Laden. Three 
months later, only after Osama bin Laden accepted their change 
of name to al Qaeda in Algeria, they changed the name. And they 
said it specifically--we had to ask the permission of Osama bin 
Laden.
    So basically, what we are saying is that more and more 
local groups in Arab countries, Muslim countries, are becoming 
part of al Qaeda's network. And that is what happened with 
Zarqawi. When Zarqawi started in Iraq, he was not part of al 
Qaeda very much.
    There were some conflicting reports, and only later in 2004 
he pledged alliance to bin Laden.
    Dr. Brachman. Ma'am, beyond the symbolic importance of 
folks like bin Laden, Zawahiri, my center at West Point spent 
the past 16 months trying to answer the question who is driving 
the bus in terms of the ideology.
    What we found is that bin Laden isn't on that bus. Bin 
Laden has almost no impact on the big brains of the jihadi 
movement or of al Qaeda. Clearly, he is the most influential 
symbolic figure on the ground, but in terms of setting the 
ideological agenda, the long-term, direction for the movement, 
he isn't seen as a factor.
    It is other people who the United States tends not to be 
sensitive to, like this guy Mafisi, or Abu Qatada, or Abdel 
Kadr or, you know, these names that aren't familiar to us.
    And this, to me, is--if we are going to defeat al Qaeda 
over the long term, we have to be more sophisticated in 
understanding who the big scholars are that are legitimizing 
and pushing the movement forward.
    Ms. Castor. That goes to Dr. Hoffman's point, know your 
enemy. And I think that it has been very easy for our country 
to focus on Osama bin Laden--I mean, after all, 9/11 and the 
impact it has had.
    But going forward, how do we analyze know your enemy and 
explain--carry that off into our policy?
    Dr. Hoffman. Well, I think we certainly--it does begin, as 
Ms. Katz and Dr. Brachman were saying, with understanding the 
ideology. But I think that is useful in the counter-propaganda 
war, in the information operations dimension.
    And it is absolutely essential in that realm, so that we 
can more effectively, and more actively, and with greater 
speed--I think that is one of the problems.
    It is not only are we not collecting this information and 
analyzing, but even when we do have it, there is an enormously 
cumbersome process before we respond or before we empower 
people to respond. So the jihadis or our enemies have, in 
essence, an open mike with no response.
    But I want to at least--not disagree with my colleagues, 
but draw a different distinction. That is how you counter the 
ideological war. I don't think we should be under any illusion 
that--al Qaeda may have become more of an ideological 
inspiration, but we shouldn't be under any illusion that al 
Qaeda has disappeared.
    I mean, when you look at--as Eliza Manningham-Buller, the 
head of the security service in Britain had said, virtually 
every--in fact, I won't say virtually--every plot that we have 
seen in Britain since 2003 has involved some distinct, 
definitive al Qaeda connection. So al Qaeda is still there.
    Now, I agree with what Dr. Brachman is saying, that al 
Qaeda or bin Laden has receded as an intellectual or an 
ideological figure. But that is the problem, I think, with this 
struggle, is it is so multifaceted. We shouldn't be blind to 
the fact that there is still an existing al Qaeda organization 
out there that is planning and plotting attacks against us.
    Ms. Castor. Do our allies in the region--do they analyze 
this data? Do they have it? Do they share it with the United 
States? Are they doing the kind of Internet analysis?
    I mean, they are right there. They should be able to maybe 
understand what is on the Internet, analyze it, if we don't 
have that capacity yet in our government.
    Ms. Katz. We have tried to interest a lot of government 
agencies in what is happening on the Internet. I don't think 
there was full understanding of what is really happening there, 
to put it in a nice way.
    Why did we need to go and stop that suicide bombers in 
Europe? Why couldn't we just give it to one of the law 
enforcement agencies here? Why did they refuse it? I think that 
there is a lot going on where there is not enough understanding 
on how important the Internet is.
    Ms. Castor. Are there other countries, though, in the 
region that have----
    Ms. Katz. Oh, the same problem?
    Ms. Castor [continuing]. That are doing a good job, or are 
more advanced, or that we can----
    Ms. Katz. Not to my knowledge.
    Mr. Benjamin. Well, first of all, we should be careful 
about defining the region.
    Ms. Castor. Yes, I guess that is right.
    Mr. Benjamin. There is an enormous amount of jihadist 
activity in Europe, and European intelligence and law 
enforcement agencies, in my view, are working pretty hard on 
this material, and they also have affiliated research 
institutes and the like that are looking closely at it. We 
don't have a monopoly on that by any means.
    If you are talking about Middle Eastern countries, well, 
many of them have very adept intelligence services but they 
tend to deploy their energies in other ways than doing a lot of 
ideological analysis. At least that is my experience.
    And they are very much involved in operational work to find 
potentially threatening people and prevent them from carrying 
out any of the threats.
    And it is also important--this was something that is in my 
written testimony, but I didn't get a chance to talk about it. 
It is very important that we are careful about the geography of 
jihad.
    The fact is that jihad had largely--jihadist movement had 
largely been wiped out in much of the Muslim world prior to 9/
11, certainly prior to the war in Iraq, and there has been a 
significant resurgence in the last few years.
    There was always a lot of activity in Saudi Arabia, but 
even that, you know, bumped up after 9/11. We have seen 
activity in Kuwait, a country we have never seen it in before. 
We have seen a resurgence in Syria, a country that literally 
exterminated all of its radical Islamists in the early 1980's.
    So that is happening. But these are, of course--just to 
come back to what Ms. Katz was saying, these are actually 
countries that have lower Internet penetration, lower computer 
usage, than, say, in Europe and other parts of the world.
    Dr. Hoffman. Could I make a brief point, Mr. Chairman? I 
don't know of any country in the world that is doing anything 
effectively to counter jihadi propaganda or terrorist 
propaganda on the Internet. You can go tonight and look at any 
country that you want--North Africa, the Middle East, Jordan, 
Egypt, Yemen, in South Asia--and no one has countered it.
    Their websites are very factual, which is commendable, but 
no one is challenging what is becoming, I think--now, let me 
back up for just one second and say there is a vast amount of 
ideology that would be very difficult to counter.
    But why don't we drill down deeply to one of the main 
causes? And this is the conspiracy theories that have become so 
prevalent and that are peddled with a greater ubiquity on the 
Internet than ever before.
    And I think this is a main failing, just countering those 
conspiracy theories, the way they are directed against the 
United States, but against individual countries that have 
assumed a truth and veracity divorced from reality, mainly 
because they lie out on the sites that Mrs. Katz monitors 
unchallenged by any government.
    And that in and of itself, I think, would be an important 
step forward, because they are assuming almost a parallel truth 
because they have become so commonplace and no one is pushing 
back against them.
    Ms. Katz. Do you have a minute?
    Mr. Smith. I am sorry, just quickly on that, and then I 
have another question I want to get to, if I may, but if both 
of you can make a quick comment.
    Dr. Brachman.
    Dr. Brachman. Just one small anecdote. After we released 
the study that I was telling you about mapping the ideology, 
the Arab newspaper Ashak Allahu ran an editorial that said we 
didn't need the U.S. Military Academy to tell us who the most 
influential thinker in the jihadi movement was, we know it is 
Makdisi.
    To us, that was a huge success, because, you know, this is 
a reengagement of the media and the press. They do know the 
stuff. It is in the air. But it is what you do with that that 
matters.
    Ms. Katz. Regarding the actual information that--Internet 
actionable--actions that are being done by different 
governments--well, the Saudis, the Syrians, the Jordanians 
also--they tried to block individuals, tried to block several 
uniform resource locators (URLs).
    When they know that there is a certain website that is 
extremely important for the jihadists to communicate, they 
block that internet protocol (IP) from being able to go to if 
you live in Jordan.
    But the jihadists always find ways to set up new URLs, and 
then they provide you in many ways of communications. Other 
governments, including the U.S. Government for a long time, was 
trying just to take down websites.
    Mr. Smith. It strikes me that that is almost superfluous. 
What we need to do is counter them with information of our own. 
I mean, getting into a technological battle, taking down 
websites--it seems to me they would always be one step ahead.
    What we need is we need counter information out there that 
is reliable.
    Mr. Benjamin, you had something?
    Mr. Benjamin. Just one very brief point. We have depicted 
the Internet as though it is only about ideology and some kind 
of social communication.
    One area that has been of great interest to the government 
and I think to a number of other governments is actually 
operational matters having to do with bomb building, having to 
deal with actual operations. And there is a lot of work going 
on there.
    So we shouldn't be fully negative. I do completely agree 
that we are not doing enough with the ideology, but there are 
things going on, many of them in the classified realm.
    Mr. Smith. Okay.
    I wanted to ask a couple of questions specifically about 
Iraq and what happens. Mr. Benjamin, Dr. Hoffman, you have 
commented and I think laid out, I think effectively, sort of 
the choice in Iraq. While it is true if we pull out, you know, 
the jihadists will--you know, I use the term--we know what is 
going to happen.
    Al Qaeda and bin Laden will declare victory. But on the 
other hand, the longer we stay there, they derive great benefit 
from that as well, and presumably at some point we are going to 
have to leave. And I understand that choice.
    I want to get a greater understanding of what happens in 
Iraq if the U.S. military--and I don't personally think that we 
can completely pull out. I personally think we need to reduce 
our force structure and leave what is there to deal.
    There are some specific al Qaeda supporters in Iraq, and 
targeting them is something that the U.S. military, I think, 
still needs to do, particularly in Al Anbar, in areas where 
some Sunnis have sort of started to rise up against the al 
Qaeda presence and seen them as, you know, foreign elements to 
be fought.
    And thus far, at least as of a week ago, they were sort of 
holding their ground. And there is an internal fight now 
between the al Qaeda elements in Al Anbar and the Sunni 
elements who oppose them.  And helping them I think would make 
a great deal of sense.
    But I want to sort of use your knowledge here to sort of 
spin out what happens internally within Iraq if we pull out 
beyond those two big broad points in terms of how the broader 
al Qaeda movement takes this, because al Qaeda--Iraq has never 
been sort of a central part of the battle.
    You mentioned a number of other countries--Saudi Arabia, 
certainly, is where bin Laden started. Egypt--a bunch of other 
places. There are forces in Iraq that are only tangentially 
interested in this discussion.
    There is your basic, you know, battle for control. There is 
differences amongst the Shia, differences amongst the Sunni. So 
how all of that plays out in terms of how it impacts al Qaeda 
and bin Laden and those who follow them in that larger threat 
is something I am very interested in and curious about your 
comments.
    One final point on that is it was described to me--what has 
essentially happened in Iraq is the former regime elements--the 
Baathists who were there for a while fighting us as 
insurgents--are still there, but al Qaeda has kind of taken 
over the Sunni insurgency.
    And what has happened with the former regime elements and 
the Baathists, to be somewhat facetious about it, is they got 
religion, like legitimately. They decided to sign up for al 
Qaeda's outlook.
    But that strikes me as more a marriage of convenience, that 
basically al Qaeda had the resources and the forces. They were 
the most effective insurgent group. The Sunnis wanted to, you 
know, stop the Shia takeover, so they basically--marriage of 
convenience, and if I have to pledge allegiance to your, you 
know, religious philosophy, sure.
    And I am sure some then started to believe it. But within 
all of that context, we pull back. The sectarian violence plays 
out. How does that affect the larger al Qaeda element? What is 
their remaining presence and what happens to their influence in 
Iraq and how it spreads out from there, in 30 seconds or less?
    It is a complicated question, I grant you, but I am very 
interested in the answer, so I want to take this moment to do 
that.
    Dr. Hoffman.
    Dr. Hoffman. Well, very briefly, I think the problem is 
that when al Qaeda in--well, before it was al Qaeda in Iraq, 
when it was Abu Musab al-Zarqawi, in 2003 and 2004, it was 
estimated it was 90 percent foreigners and 10 percent Iraqis.
    I think the latest estimates from CENTCOM or from the 
Multinational Force Headquarters in Iraq would be that al Qaeda 
in Iraq now is 90 percent Iraqi and only 10 percent foreigners.
    So in that respect, I don't think that it affects--pulling 
out of Iraq affects al Qaeda in the main all that much because 
the majority of the fighters there are Iraqis who I think are 
going to have plenty to keep them busy for years to come 
against the Shia and against other forces.
    I think in terms of the propaganda bounce they would get, 
which is not insignificant--but I think they have already been 
milking that. They have already demonstrated that their 
fighters can stand up to the United States. This, I think, is 
already a train that has left the station.
    I think that shouldn't be something that imprisons us 
there, that they are going to continue to milk that for 
propaganda. I think that, you know--hitting harder against al 
Qaeda's resurgence in Afghanistan would be a greater setback to 
the ambitions.
    Destroying the Taliban and the insurgency in south 
Afghanistan would be a great setback to al Qaeda--not al Qaeda 
in Iraq, but al Qaeda's ambitions than continuing to be 
enervated by the struggle in Iraq.
    Mr. Benjamin. I agree with Bruce that the terrorists--the 
jihadists believe they have won. And if you read some of the 
material coming out of the SITE Institute and others, they are 
pretty triumphalist at this point.
    There is a certain amount of bluster, but there is also a 
certain amount of conviction that, you know, they have taken 
the day.
    I don't think we have a lot of great options. My own view 
is that by surging, we have foreclosed a containment option.
    Now, containment is not a great option, but it, to my mind, 
has a lot of virtues that have not gotten a full airing. And in 
particular, in Anbar, where I don't think we are going to root 
out al Qaeda for the foreseeable future, it would be quite 
important.
    I think we should be clear about this. If we send 50,000 
troops--and there has been talk out of the Marine Corps, for 
example, that we need to do that--into Anbar, we are not going 
to get rid of those guys, because they are not going to stand 
and hold territory. They are going to come back when the sun 
sets, which is what they have been doing all along.
    What we need to root out al Qaeda in Anbar is a Sunni-run 
intelligence service that is dedicated to the mission. And we 
are going to need patience. And the way we are going, we are 
not going to get that.
    Mr. Smith. Are we getting closer to that? Are we getting 
closer to a Sunni population in Al Anbar that is willing to 
take on al Qaeda?
    Mr. Benjamin. Sir, I am sure you have seen better 
intelligence than I have. I am very, very skeptical of this, 
only because I have heard this story cycle through the news 
about once a year now, that the sheiks are getting together and 
they are cracking down.
    If you go back and you look at the intelligence report that 
was filed by Colonel Devlin of the Marine Corps, he actually 
made--and this appeared in The Washington Post. He made the 
argument that al Qaeda has systematically disabled the tribes 
and wiped out a lot of their leaders, and that therefore it is 
a very atomized society in which the jihadists have the upper 
hand and are now, in fact, the dominant element in that 
society.
    Ms. Katz. Like Bruce said earlier, 90 percent of the al 
Qaeda in Iraq--by the way, they are not called al Qaeda in Iraq 
anymore. It is the Islamic State of Iraq. And that is actually 
a significant difference, because they are not only al Qaeda in 
Iraq anymore.
    They joined ventures and they united with many other Sunni 
insurgency, about a dozen Sunni insurgency. And that tells us a 
lot, that they serve today, as my understanding--being in their 
community online is--it serves as--this is the group that 
protects the Sunnis, in Anbar especially.
    And how can you go and root them out if most of the 
population, or large percentage of the population, is combined 
with them? They live together. They are part of the same 
organization. And that is why they are not called today al 
Qaeda in Iraq anymore but the Islamic State of Iraq.
    And from the al Qaeda point of view and other jihadists 
around the world, this was a great success, that they were able 
to gain much more than I think they anticipated in the 
beginning, that Zarqawi thought he will be able to do when he 
started with all his activities in Iraq.
    Mr. Smith. Thank you.
    Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    And welcome all of you here, which--you have probably 
already been duly welcomed, but thank you for being here.
    I, over the last month or so, have become increasingly 
concerned about the health of the Sunni governments in Saudi 
Arabia and Egypt, Qatar and Jordan and the UAE.
    And I guess I would like to ask a question, but the 
question is preceded by this. I am aware that there is some 
level of al Qaeda building success in each of the countries 
that I mentioned.
    About two weeks or three weeks ago John Dingell invited the 
ambassadors--that is number two--the ambassadors from the 
countries that I mentioned to here in the Rayburn Building for 
a discussion of what we should do about Iraq.
    And they expressed their strong desire--and this has 
nothing to do with the debate that is on the floor today and 
has a lot to do with what we do long term. They expressed the 
strong desire that we not conduct a precipitous withdrawal 
because they think it would be very destabilizing for the area.
    And number three, I talked to a couple of friends. They got 
me curious--the ambassadors got me curious, and I talked to a 
couple of friends who are knowledgeable who travel in the 
Middle East a lot.
    And they told me that yes, in fact, call them al Qaeda or 
call them whatever you wish, the governments in those countries 
are truly concerned about being able to survive and to have 
their successors survive, and the threat being al Qaeda or al 
Qaeda-type groups.
    What do you think?
    Dr. Hoffman. Well, Congressman, that is exactly why at 
greater length in my written testimony I thought that we 
should--precisely why we need to refocus our attention and 
efforts outside of Iraq to building up the capacity of our 
allies instead of pouring the money down the sieve that it is 
going into in Iraq right now.
    That money could be better spent stabilizing the rest of 
the region and strengthening our key allies there, which I 
think is a more positive activity than throwing good money 
after bad.
    I see the region first already enormously destabilized just 
by our presence in Iraq and indeed by a resurgent Iran who--I 
think in their point of view, they couldn't be happier for us 
to remain enmeshed in Iraq, because it emboldens them.
    But I think the views expressed by the ambassadors--I mean, 
they have to take a hand in defending their own region. They 
can't depend on the United States.
    And that is why I think it is enormously important that we 
show that we are not going to continue drilling a dry hole 
after it is not successful, but we are willing to commit to the 
region, to strengthen them, to help them to help themselves, 
and to stand beside them, but that we can't solve a problem 
that is unfortunately insoluble.
    Mr. Benjamin. I agree with Dr. Hoffman. Just a few 
additional points. These countries all face a significant 
threat to their own leadership.
    In a sense, what moral support they have in their own 
societies--because Iran has outflanked them as being the 
champion of the Palestinian cause, of the anti-American cause, 
and whatever the sectarian divide may be, that is very popular 
among--in the so-called Arab street. And so that is having a 
corrosive effect on these regimes.
    Additionally, there is the long-term worry about 
instability because of radical Islamist upheaval.
    At the same time, I would caution that we have gotten 
nervous on and off many times in the past--some of these 
countries are actually fairly stable and have the resources to 
take care of their opponents. Saudi Arabia, for example, is 
very good at co-opting anyone who challenges the Al Saud 
family.
    Now, the one thing that I would suggest is the most 
proximate worry is refugee flows out of Iraq, into Jordan, into 
Syria, and into several other countries in the region, because 
refugee flows are historically associated with instability and 
with the transfer of radicalism from one country to another.
    And it seems to me that this bell has not been rung loudly 
enough, and it concerns me greatly.
    Mr. Smith. Thank you, Mr. Saxton.
    Do we have other questions?
    Mr. Cooper.
    Mr. Cooper. Is there a short version of your course, Dr. 
Brachman, you could offer Members of Congress?
    Dr. Brachman. Yes, sir.
    Mr. Cooper. CliffsNotes for Congress?
    Dr. Brachman. We have actually been working with the FBI in 
doing 2.5-day training seminars to the Joint Terrorism Task 
Forces all around the country.
    And so there are a number of these kind of scalable models 
that us and a number of other, you know, universities and 
government agencies have been trying to build up to increase 
the educational awareness.
    But there are resources on our website, and we can talk 
offline, sir, about how to get those.
    Mr. Cooper. Another question. To the extent the Internet 
has been used as an anti-American weapon, to what extent is it 
being used as an anti-Sunni or-Shia weapon, or an anti-tribal 
weapon, to promote civil war or other breakups of the Arab, you 
know, street?
    I would presume that a weapon of this magnitude could be 
directed against virtually any----
    Ms. Katz. It is a weapon that can be used against anything 
and anything.
    Mr. Cooper. Is it being used against----
    Ms. Katz. It is being used very much----
    Mr. Cooper [continuing]. Tribe versus tribe, or----
    Ms. Katz [continuing]. For a lot of the war--a lot of the 
indoctrination of what has happened in Iraq started with Abu 
Musab al-Zarqawi.
    All his speeches from the beginning, where we have to fight 
the Shia, the Americans will eventually leave, but we all have 
to understand that this is a war that will last forever because 
the Shias are going to take over Iraq with the democratic 
elections that we are going to have here.
    This is a weapon that is being used for--when we look at 
the beheading--why did he need to behead these people? He could 
have just shot them. But he beheaded them because it plays an 
important role in the psychological warfare. It can change 
people's opinion and ask the public opinion to move out from 
Iraq and things like that.
    But it is definitely being used very much in instigating 
civil war.
    Mr. Cooper. Is it being used as an anti-Persian weapon 
right now?
    Ms. Katz. You mean anti-Iran?
    Mr. Cooper. Yes.
    Ms. Katz. Very much.
    Mr. Cooper. But more of a racial base.
    Ms. Katz. Yes. Within the jihadi online community, the 
Sunnis you are talking about--they don't like Iran. And one 
thing that they are happy with is the American attitude against 
Iran to stop their nuclear ambition.
    The jihadists extremely scared that if Iran get their 
nuclear weapon, that will make them stronger than they are 
today. They see Iran behind many of the reasons that the Sunnis 
are suffering in Iraq and other places. So there is a huge 
campaign, anti-Iran, in the jihadi community.
    Mr. Cooper. A final question. Adam had mentioned we might 
be giving them a break by calling them jihadis. Are we giving 
them a break when we say it is a Salafist movement as opposed 
to a Wahabbi movement?
    Ms. Katz. Well, not every Salafist maybe is a jihadist. I 
think that when we use the word jihadi we mean someone who is, 
you know, willing to fight for the cause. Not every Salafist 
probably would do that.
    So right now, I don't think there is any better word, and 
that is why we are all using it. Well, we all agree that 
maybe----
    Dr. Hoffman. If I could just add something, I mean, during 
the Cold War we didn't have any hesitation identifying and 
calling our enemies communists, even though there were enormous 
varieties of communists, from Marxism, Leninism, Maoism, 
Trotskyism and so on.
    So I don't think we should be hesitant. I think all of us 
have made a distinction that I think is generally lost on most 
people. I am not implying the committee, but the jihadis call 
themselves jihadis. I think that is different from jihadist.
    I mean, jihadist does have a positive connotation. But they 
call themselves jihadis, in the same way communists called 
themselves communists.
    So I am not sure that we really do a disservice to this 
word or to the concept by referring to them in the same manner 
that they refer to themselves, in a word that they, after all, 
invented for themselves.
    Mr. Cooper. And we want to make sure we minimize our 
enemies, and we are not against Islam. We are just against 
violent extremists.
    Dr. Hoffman. Right.
    Mr. Smith. Mr. Thornberry.
    Mr. Thornberry. If the conflicts between Sunni and Shia 
continue to escalate, including the Iranian nuclear program, 
what effect does that have on the worldwide jihadis?
    Does that suck some of the energy into Sunnis opposing 
Shia? Or do we end up with a situation where the fringes unite 
in some way and we are facing something more dangerous?
    Ms. Katz. When we were witnessing to that event in the 
summer when there was a war between Israel and Hezbollah in 
Lebanon, the jihadi community was immediately--they raised the 
question are we supposed to go and fight with the Hezbollah, 
because after all, they are fighting our enemy.
    There were some Saudi scholars who issued fatwas saying no, 
you cannot, because, you know, they are both our enemies, and 
they got tons--numerous fatwas from their own communities 
saying you cannot go and help them.
    Now, if this is going to continue, the conflict between the 
Shia and Sunni, this is not going to be good for anyone, 
because the conflict between them will spread to the Middle 
East, to countries like Qatar and other UAE countries where the 
Shias have very important communities.
    And we know from all the jihadi online community and 
messages that we intercept all the time between members that 
they are looking into spreading this conflict very much. And 
they don't like what they have right now.
    Dr. Hoffman. If I could add something, there is an 
historical precedent because, of course, over 20 years ago when 
Iran and Iraq were at war, we could say well, there are two 
enemies in the region, in essence, they are fighting with one 
another, and we can stand aside.
    But we saw that actually, ironically, it was during that 
period that it produced the sharpest spike in Shia 
international terrorism. This is when the Hezbollah was born, 
when it began to carry out international terrorist attacks, and 
when terrorism became a sideshow or another battlefield of the 
much wider war.
    But also, too, we should--I agree entirely with Mrs. Katz. 
But we should understand that neither the Shia nor the Sunni 
worlds are monolithic, of course, and they make alliances of 
convenience.
    Hamas, which is a purely Sunni organization--its patron is 
not al Qaeda. Its patron is Hezbollah. They have enormously 
close relations and have had so for more than 20 years.
    Mr. Benjamin. I would just add, first of all, that the 
conflict that Dr. Hoffman was talking about was also coming out 
of the--the Iranian revolution was also, you know, the impetus 
for the kinds of exported Wahabbi ideology that led to the 
establishment of al Qaeda.
    So you know, you can have a perfect storm again, and you 
could also see some very horrible consequences somewhere down 
the line.
    Just to answer your original question a little more 
precisely, I think there has already been a significant 
reorientation of energy in the jihadi community, especially in 
Iraq and its neighborhood, against Shia.
    There has been a strong anti-Shia streak within al Qaeda 
since very early on, and the group--although the intelligence 
is again murky, the group has been associated with anti-Shia 
groups in Pakistan, a country that historically has the highest 
level of anti-Shia or sectarian violence.
    You could imagine that an American withdrawal, for example, 
would really focus the jihadis overwhelmingly on Shia targets 
and vice versa.
    My own view is that while there may be some very unwelcome 
consequences down the line, one specter we should dispense with 
is the possibility of a jihadist government in Iraq. I don't 
think that is going to happen. I just don't see the balance of 
forces being conducive to that. But perhaps Bruce or some 
others have a different view.
    Mr. Smith. Thanks.
    I have one final also not short question. But in looking at 
the ideology behind al Qaeda and, you know, like groups--and 
someone mentioned earlier the--you know, basically, if it is 
not exactly like Islam, it must be destroyed, and the notion of 
basically, you know, convert or die, if you will, for lack of a 
better way to put it--which is a driving force behind al Qaeda.
    I think it is--you know, the caliphate is not their end 
goal. It is basically the whole world, as I understand it.
    You know, if you--and I have admittedly just taken a 
cursory look at this, but if you look at Mohammed himself and 
how the religion was born, that is really contrary to where he 
was coming from, that basically--I think there is a point in 
there that he did not wish to convert people outside of, I 
think, the Arab world at the time.
    He was bringing monotheism basically to a world that hadn't 
seen it, and you know, they had no desire to convert. And there 
is a lot in there about living peacefully with those of 
different religions.
    How did we get from that to this, you know, rather strong 
stand by al Qaeda and others that they are both the true heirs 
to Mohammed and believe something that is so diametrically 
opposed?
    Now, a piece of that, as I understand it--and I 
mispronounce this guy's name all the time, but Qutb, I believe 
it is, one of the guys who wrote it, who didn't--who started 
out with an ideology along these roads but didn't quite become 
violent until he confronted the Nasser regime in Egypt, and I 
think basically sort of reached the conclusion that it is kill 
or be killed--they are so against Islamists that we have to 
wipe them all out. That is one minor little understanding of 
it.
    You know, if there was some way to sort of unring that bell 
within the al Qaeda community and get them away from that 
notion that we can't have more than one religion in the world, 
that would obviously be helpful.
    How widespread is that feeling? Do people in the Muslim 
world make this argument consistently, that Mohammed did not 
envision it that way, so what are you doing? Or how did we wind 
up in that place?
    Dr. Brachman. Sir, that is a----
    Mr. Smith. It is sort of your area, Dr. Brachman.
    Dr. Brachman. That is an extensive question. I will try to 
just be brief. I think most of al Qaeda's high command would be 
fine having global governance, not necessarily having a global 
population of purely Muslims.
    As long as they are in control of the world, or at least a 
substantial part of it, I think that is good enough. The 
establishment of the caliphate doesn't mean everyone has to be 
Muslim.
    Mr. Smith. Sure. That, too, is counter to where Mohammed 
was headed in terms of how he was spreading his----
    Dr. Brachman. And in terms of Qutb, yes, he has provided 
tremendous intellectual horsepower for this, but it was his 
brother who brought much of the movement then over to Saudi 
Arabia after Sayyid's death.
    And then he not only brought the ideology, but he also 
brought all of his like-minded believers who were being 
persecuted by the Egyptian government at the time with him. 
They all took teaching posts within the university and high 
school systems within Saudi Arabia.
    And so you saw this intellectual Salafi movement being 
combined with this conservative Wahabbi interpretation of 
Islam, which is where you get this whole kind of screwed up 
understanding of--not you, but you know, people who are trying 
to analyze this--of Salafis versus Wahabbis versus--and so you 
have decades, then, of this hybridization, of this kind of 
bubbling and percolation, not in the universities but after the 
university classes.
    It is a lot of, you know, passing of literature kind of 
behind the scenes. But what makes this such a powerful movement 
is that it is a resistance movement. It is never cool to be the 
establishment scholars. And so that is really what they have 
played on for decades.
    And I think it is a peripheral movement in terms of a 
Salafi body of believers. The jihadis are a very small 
percentage. But they have been asymmetrically powerful in using 
the Internet and propaganda to unify the global community of 
jihadis in a way that is difficult to move back from.
    Ms. Katz. Just to add more to this point, when Sayyid Qutb 
wrote his publication, he was part of the movement of the 
Muslim Brotherhood, which is--different from what we see today, 
the jihadi movement.
    The jihadi movement that we are all talking about is a new 
thing. It is not something that you will find a book that was 
written that applies that, the ideology will apply exactly to 
that.
    It is an evolving movement which changes its ideology as 
things are changed in the world. And so all they want is to 
have the Islamic caliphate--give us our world, give us our own 
empire, and Muslims can live together with Shias and Jews and 
whatever, just like they were in the past.
    But it is really a new ideology, a new movement, that needs 
to be studied because it differ from the Muslim Brotherhood. I 
remember that, you know, some ten years ago the Muslim 
Brotherhood was considered by us as the most radical Muslim 
movement. It is not anymore.
    The jihadi new movement that we are encountering today is 
the one that we really need to study and understand better, 
because it has really evolved itself as a resistance movement 
that continues as an idea.
    And that is why I said in my opening statement an idea like 
that you can't just kill. You can continue killing people, but 
I think that throughout history--and Bruce Hoffman probably 
will agree with me on that--you can kill people; you can never 
kill an idea.
    Mr. Benjamin. You are absolutely right that Mohammed said 
there should be no force in religion, no compulsion. But we 
should remember that all of the great religions, because they 
have so many different texts, are incredibly plastic and can be 
interpreted in an infinitude of different ways.
    And you know, we can only look at our own religious 
landscape here. Is one a sermon-on-the-mount Christian or a 
Book-of-Revelations Christian? You know, we can see these kinds 
of influences in----
    Mr. Smith. Sorry to interrupt, but a pastor said something 
this weekend at a church I was at that I thought was very 
profound. He said, ``God's language is silence. Everything else 
is a really bad translation.'' And I kind of liked that. I just 
thought it was appropriate to add that at that moment.
    Go ahead.
    Mr. Benjamin. Remind me to filter that. But you know, we 
are dealing with a movement that views itself as a purification 
movement, a movement that is driven by the sense of empowerment 
that people have that they can interpret scriptures by 
themselves.
    This is in some ways a fairly novel thing in Islam, that we 
don't have to rely on all these old scholars and commentaries. 
This is coming out of the reform movements in Islam of the last 
century.
    And as I mentioned before, you know, this is a group that 
has raised defensive jihad to a pillar of Islam, which is not, 
I think, what most of the great Islamic scholars throughout 
history would consider it, with the possible exception of Ibn 
Taymiya, who is the man that they all cite.
    So you know, things are changing, and the only point I 
would make in closing is that it is really not for us to tell 
them what the true religion is and isn't.
    That is something that Muslims are going to have to sort 
out themselves, because we are not, you know, a validated 
spokesperson in this debate. That is really something that the 
Muslim world has to figure out.
    Mr. Smith. Dr. Hoffman.
    Dr. Hoffman. Well, briefly, I agree with everything that 
has been said, but we are talking about the intelligentsia or 
the philosophers.
    I think that when you look at the people who are actually 
committing the violence and if you look at the martyrdom tapes, 
they are not debating theology. They are not referring back to 
what the Prophet Mohammed meant. They see this--first, it is a 
politicized form of Islam.
    Second, they see this fundamentally as a defensive war. 
They see themselves repeatedly, whether it is the 19--well, at 
least the tapes that have been released by--I think now it is 
five of the 19 hijackers from 9/11, or whether it is the two 
bombers of the subways in London, so on--their claim is that--
has nothing to do with the theology. They are not 
intellectualizing this.
    They are saying Islam is under attack, that the West is a 
predatory aggressive force, that they are not terrorists but 
they are soldiers defending against these depredations or 
against this predatory aggressive force, that they have no 
choice but to use this violence, that they are reluctant 
warriors.
    And I think what bin Laden's success has been is then 
harnessing that sense of being besieged into a sense of 
empowerment, that then you have the cathartic value of striking 
back against your oppressor or against your predator. And that 
is what is motivating the killers.
    Mr. Smith. Thank you very much.
    Mac, do you have anything else?
    Mr. Thornberry. I will not prolong it, but it seems to me 
that this takes us back where we started. That is what we have 
to understand to really deal with this. I mean, we do have to 
understand at the intellectual level, but what motivates 
someone to take the emotions you just described and then commit 
acts like we have seen.
    I think that deserves a lot more effort on the part of our 
government by whatever mechanisms. And I appreciate you all's 
help today.
    Mr. Smith. Thank you very much. That was very, very helpful 
and very informative, and I am sure we will call on all of you 
again as we work our way through this. Your expertise is 
invaluable to us, and I thank you for taking the amount of time 
you have to help us with that.
    And with that, we are now adjourned.
    [Whereupon, at 4:12 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 14, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 14, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7980.001
    
    [GRAPHIC] [TIFF OMITTED] T7980.002
    
    [GRAPHIC] [TIFF OMITTED] T7980.003
    
    [GRAPHIC] [TIFF OMITTED] T7980.004
    
    [GRAPHIC] [TIFF OMITTED] T7980.005
    
    [GRAPHIC] [TIFF OMITTED] T7980.006
    
    [GRAPHIC] [TIFF OMITTED] T7980.007
    
    [GRAPHIC] [TIFF OMITTED] T7980.008
    
    [GRAPHIC] [TIFF OMITTED] T7980.009
    
    [GRAPHIC] [TIFF OMITTED] T7980.010
    
    [GRAPHIC] [TIFF OMITTED] T7980.011
    
    [GRAPHIC] [TIFF OMITTED] T7980.012
    
    [GRAPHIC] [TIFF OMITTED] T7980.013
    
    [GRAPHIC] [TIFF OMITTED] T7980.014
    
    [GRAPHIC] [TIFF OMITTED] T7980.015
    
    [GRAPHIC] [TIFF OMITTED] T7980.016
    
    [GRAPHIC] [TIFF OMITTED] T7980.017
    
    [GRAPHIC] [TIFF OMITTED] T7980.018
    
    [GRAPHIC] [TIFF OMITTED] T7980.019
    
    [GRAPHIC] [TIFF OMITTED] T7980.020
    
    [GRAPHIC] [TIFF OMITTED] T7980.021
    
    [GRAPHIC] [TIFF OMITTED] T7980.022
    
    [GRAPHIC] [TIFF OMITTED] T7980.066
    
    [GRAPHIC] [TIFF OMITTED] T7980.067
    
    [GRAPHIC] [TIFF OMITTED] T7980.068
    
    [GRAPHIC] [TIFF OMITTED] T7980.023
    
    [GRAPHIC] [TIFF OMITTED] T7980.024
    
    [GRAPHIC] [TIFF OMITTED] T7980.025
    
    [GRAPHIC] [TIFF OMITTED] T7980.026
    
    [GRAPHIC] [TIFF OMITTED] T7980.027
    
    [GRAPHIC] [TIFF OMITTED] T7980.028
    
    [GRAPHIC] [TIFF OMITTED] T7980.029
    
    [GRAPHIC] [TIFF OMITTED] T7980.030
    
    [GRAPHIC] [TIFF OMITTED] T7980.031
    
    [GRAPHIC] [TIFF OMITTED] T7980.032
    
    [GRAPHIC] [TIFF OMITTED] T7980.069
    
    [GRAPHIC] [TIFF OMITTED] T7980.070
    
    [GRAPHIC] [TIFF OMITTED] T7980.071
    
    [GRAPHIC] [TIFF OMITTED] T7980.033
    
    [GRAPHIC] [TIFF OMITTED] T7980.034
    
    [GRAPHIC] [TIFF OMITTED] T7980.035
    
    [GRAPHIC] [TIFF OMITTED] T7980.036
    
    [GRAPHIC] [TIFF OMITTED] T7980.037
    
    [GRAPHIC] [TIFF OMITTED] T7980.038
    
    [GRAPHIC] [TIFF OMITTED] T7980.039
    
    [GRAPHIC] [TIFF OMITTED] T7980.040
    
    [GRAPHIC] [TIFF OMITTED] T7980.041
    
    [GRAPHIC] [TIFF OMITTED] T7980.042
    
    [GRAPHIC] [TIFF OMITTED] T7980.043
    
    [GRAPHIC] [TIFF OMITTED] T7980.044
    
    [GRAPHIC] [TIFF OMITTED] T7980.045
    
    [GRAPHIC] [TIFF OMITTED] T7980.046
    
    [GRAPHIC] [TIFF OMITTED] T7980.047
    
    [GRAPHIC] [TIFF OMITTED] T7980.048
    
    [GRAPHIC] [TIFF OMITTED] T7980.049
    
    [GRAPHIC] [TIFF OMITTED] T7980.050
    
    [GRAPHIC] [TIFF OMITTED] T7980.051
    
    [GRAPHIC] [TIFF OMITTED] T7980.052
    
    [GRAPHIC] [TIFF OMITTED] T7980.053
    
    [GRAPHIC] [TIFF OMITTED] T7980.054
    
    [GRAPHIC] [TIFF OMITTED] T7980.055
    
    [GRAPHIC] [TIFF OMITTED] T7980.056
    
    [GRAPHIC] [TIFF OMITTED] T7980.057
    
    [GRAPHIC] [TIFF OMITTED] T7980.072
    
    [GRAPHIC] [TIFF OMITTED] T7980.073
    
    [GRAPHIC] [TIFF OMITTED] T7980.074
    
    [GRAPHIC] [TIFF OMITTED] T7980.058
    
    [GRAPHIC] [TIFF OMITTED] T7980.059
    
    [GRAPHIC] [TIFF OMITTED] T7980.060
    
    [GRAPHIC] [TIFF OMITTED] T7980.061
    
    [GRAPHIC] [TIFF OMITTED] T7980.062
    
    [GRAPHIC] [TIFF OMITTED] T7980.063
    
    [GRAPHIC] [TIFF OMITTED] T7980.064
    
    [GRAPHIC] [TIFF OMITTED] T7980.065
    
                                  <all>

</pre></body></html>
